<html>
<title> - LEGISLATIVE HEARING ON H.R. 5597, TO PROVIDE FOR THE EXPANSION OF THE DESERT TORTOISE HABITAT CONSERVATION PLAN, WASHINGTON COUNTY, UTAH, ``DESERT TORTOISE HABITAT CONSERVATION PLAN EXPANSION ACT, WASHINGTON COUNTY, UTAH''; H.R. 5751, TO REDESIGNATE GOLDEN SPIKE NATIONAL HISTORIC SITE AND TO ESTABLISH THE TRANSCONTINENTAL RAILROAD NETWORK, ``GOLDEN SPIKE 150TH ANNIVERSARY ACT''; AND H.R. 5875, TO AMEND THE PITTMAN-ROBERTSON WILDLIFE RESTORATION ACT AND THE DINGELL-JOHNSON FEDERAL AID IN SPORT FISH RESTORATION ACT, TO PROVIDE PARITY FOR UNITED STATES TERRITORIES AND THE DISTRICT OF COLUMBIA, TO MAKE TECHNICAL CORRECTIONS TO SUCH ACTS AND RELATED LAWS, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



H.R. 5597, ``DESERT TORTOISE HABITAT CONSERVATION PLAN EXPANSION ACT, 
WASHINGTON COUNTY, UTAH''; H.R. 5751, ``GOLDEN SPIKE 150TH ANNIVERSARY 
    ACT''; AND H.R. 5875, TO AMEND THE PITTMAN-ROBERTSON WILDLIFE 
  RESTORATION ACT AND THE DINGELL-JOHNSON FEDERAL AID IN SPORT FISH 
 RESTORATION ACT, TO PROVIDE PARITY FOR UNITED STATES TERRITORIES AND 
 THE DISTRICT OF COLUMBIA, TO MAKE TECHNICAL CORRECTIONS TO SUCH ACTS 
               AND RELATED LAWS, AND FOR OTHER PURPOSES

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON FEDERAL LANDS

                                OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, May 22, 2018

                               __________

                           Serial No. 115-46

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-229 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2542554a65465056514d4049550b464a480b">[email&#160;protected]</a>           
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Nydia M. Velazquez, NY
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Ruben Gallego, AZ
Raul R. Labrador, ID                 A. Donald McEachin, VA
Scott R. Tipton, CO                  Anthony G. Brown, MD
Bruce Westerman, AR                  Jimmy Gomez, CA
Daniel Webster, FL                   Vacancy
Jack Bergman, MI                     Vacancy
Liz Cheney, WY                       Raul M. Grijalva, AZ, ex officio
Greg Gianforte, MT
John R. Curtis, UT
Rob Bishop, UT, ex officio

                                 
                              ----------
                              
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 22, 2018............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     6
    Bordallo, Hon. Madeleine, a Delegate in Congress from the 
      Territory of Guam..........................................    53
    Hanabusa, Hon. Colleen, a Representative in Congress from the 
      State of Hawaii............................................     4
        Prepared statement of....................................     5
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3
    Stewart, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................    20

Statement of Witnesses:
    Aponte-Hernandez, Hon. Jose F., Representative, Puerto Rico 
      House of Representatives...................................    54
        Prepared statement of....................................    56
        Supplemental testimony submitted for the record..........    57
    Cox, Dean, Commissioner, Washington County Commission, St. 
      George, Utah...............................................    40
        Prepared statement of....................................    41
    Foxley, Doug, Chairman, Transcontinental Railroad, 150th 
      Celebration Commission, Salt Lake City, Utah...............    11
        Prepared statement of....................................    13
    Smith, P. Daniel, Deputy Director, National Park Service, 
      U.S. Department of the Interior, Washington, DC............     7
        Prepared statement of....................................     8
        Questions submitted for the record.......................    10
    Van Dam, Paul, Member, Board of Directors, Conserve Southwest 
      Utah, Ivins, Utah..........................................    28
        Prepared statement of....................................    30

Additional Materials Submitted for the Record:
    Department of the Interior, Statement for the record on H.R. 
      5597.......................................................    63
    Department of the Interior, Statement for the record on H.R. 
      5875.......................................................    66
    List of documents submitted for the record retained in the 
      Committee's official files.................................    67

    Submissions for the Record by Representative Stewart on H.R. 
      5597

        Access Fund, April 16, 2018, Letter addressed to Rep. 
          Stewart................................................    20
        Conservation Fund, March 27, 2018, Letter to Rep. Stewart    21
        Dixie Metropolitan Planning Organization, May 17, 2018, 
          Letter addressed to Rep. Stewart.......................    21
        Hooper, Steven B., May 17, 2018, Letter addressed to 
          Senator Hatch..........................................    22
        Ivins City Resolution No. 2018-09R.......................    22
        Larkin, Dannielle, May 17, 2018, Letter addressed to 
          Senator Lee............................................    23
        LaVerkin City Resolution No. R-2018-09...................    24
        Southern Utah Climbers Coalition, Letter addressed to 
          Rep. Stewart...........................................    25
        St. George, City of, Resolution No. 2018-04-001R.........    26
        Washington City Resolution No. R2018-06..................    26
                                     


 
 LEGISLATIVE HEARING ON H.R. 5597, TO PROVIDE FOR THE EXPANSION OF THE 
  DESERT TORTOISE HABITAT CONSERVATION PLAN, WASHINGTON COUNTY, UTAH, 
 ``DESERT TORTOISE HABITAT CONSERVATION PLAN EXPANSION ACT, WASHINGTON 
    COUNTY, UTAH''; H.R. 5751, TO REDESIGNATE GOLDEN SPIKE NATIONAL 
 HISTORIC SITE AND TO ESTABLISH THE TRANSCONTINENTAL RAILROAD NETWORK, 
  ``GOLDEN SPIKE 150TH ANNIVERSARY ACT''; AND H.R. 5875, TO AMEND THE 
  PITTMAN-ROBERTSON WILDLIFE RESTORATION ACT AND THE DINGELL-JOHNSON 
FEDERAL AID IN SPORT FISH RESTORATION ACT, TO PROVIDE PARITY FOR UNITED 
  STATES TERRITORIES AND THE DISTRICT OF COLUMBIA, TO MAKE TECHNICAL 
   CORRECTIONS TO SUCH ACTS AND RELATED LAWS, AND FOR OTHER PURPOSES

                              ----------                              


                         Tuesday, May 22, 2018

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Westerman, Curtis, 
Bishop; Hanabusa, Lowenthal, and McEachin.
    Also present: Representatives Stewart, Gonzalez-Colon; 
Bordallo, Sablan, and Plaskett.

    Mr. McClintock. The Subcommittee on Federal Lands of the 
House Natural Resources Committee will come to order.
    The Chair would ask unanimous consent that all Members on 
the witness list testifying on today's panel be allowed to sit 
with the Subcommittee, give their testimony, and participate in 
the hearing from the dais.
    Without objection, so ordered.
    In addition, I would ask the following Members be allowed 
to sit with the Subcommittee and participate in the hearing for 
the consideration of the bills we have before us today: Mrs. 
Radewagen from American Samoa; Miss Gonzalez-Colon from Puerto 
Rico; Mr. Sablan from the Northern Mariana Islands; and Ms. 
Plaskett from the U.S. Virgin Islands.
    Without objection, so ordered.
    Under Committee Rule 4(f) any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chairman. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules. I 
would ask unanimous consent that all other Members' opening 
statements be made part of the hearing record if they are 
submitted to the Subcommittee Clerk by 5:00 p.m. today.
    Without objection, so ordered.
    We will be continuing our parliamentary experiment into the 
individual consideration of bills before us. So, we will hear 
testimony on each of the bills in sequence. If a witness is 
addressing multiple bills, the complete testimony will be heard 
at one time. After all the testimony is heard on the first 
bill, Members will have 5 minutes per round to ask questions on 
that bill. Then we will hear from our witnesses on the next 
bill and repeat that process.
    Be sure to tell us how you think it is working.
    With that, we will begin with opening statements, starting 
with mine.

STATEMENT OF HON. TOM McCLINTOCK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. McClintock. We have three bills before us today. First 
we will consider H.R. 5751, the Golden Spike 150th Anniversary 
Act, sponsored by Natural Resource Committee Chairman Rob 
Bishop of Utah.
    Chairman Bishop's bill prepares for the sesquicentennial 
celebration of the completion of the Transcontinental Railroad, 
which will be celebrated on May 10, 2019.
    The completion of the Transcontinental Railroad, which was 
consummated with the driving of the final spike at Promontory 
Summit, literally transformed America. It finished the great 
race across the frontier between the Union Pacific and Central 
Pacific Railroads.
    I think it is difficult today to fully appreciate how 
revolutionary this event was for our Nation. On that single 
day, at that single moment, for the first time, the American 
continent was connected both by railroad and telegraph. The 
3,000-mile journey from New York to San Francisco that had 
taken weeks now took only days. Messages that took days to 
transmit by Pony Express rider now took only seconds.
    The Golden Spike 150th Anniversary Act will recognize the 
Golden Spike National Historic Site by redesignating it as 
Golden Spike National Historical Park. Additionally, the bill 
ensures that other sites and structures critical to the 
history, construction, and legacy of the Transcontinental 
Railroad are recognized and linked together in a new 
Transcontinental Railroad Network.
    The bill will also help to restore the Federal Government 
as a good neighbor by ensuring that neighboring landowners and 
the Park Service can work together to expedite minor projects 
that crisscross park and private boundaries.
    Next, we will consider H.R. 5597, offered by Congressman 
Stewart of Utah. H.R. 5597 reflects a well-balanced compromise 
that has been achieved by Congressman Stewart and his staff, 
who have worked diligently with local communities and experts 
in biology and ecology.
    This bill authorizes a transportation and utility corridor 
through the Red Cliffs National Conservation Area in Washington 
County, Utah. The much-needed corridor will reduce traffic 
congestion while simultaneously improving the air quality of 
the area.
    This legislation also adds 6,800 acres to the Red Cliffs 
Desert Reserve, created in 1996 to provide additional habitat 
for the Mojave Desert tortoise.
    Finally, H.R. 5875, introduced by Delegate Bordallo of 
Guam, seeks to address parity concerns between the 50 states 
and the U.S. territories with regard to the formulas within the 
Pittman-Robertson and Dingell-Johnson conservation programs. 
While the territories are included in the statutory definition 
of ``states,'' they are not afforded an opportunity to receive 
an equal share of Pittman-Robertson and Dingell-Johnson 
funding. Delegate Bordallo's legislation provides the Secretary 
of the Interior greater flexibility in apportioning 
conservation funds, and requires parity between the states and 
territories with respect to funding for basic hunter education 
programs.
    I would like to thank our witnesses for appearing before 
the Subcommittee today. I look forward to hearing their 
testimony.
    With that, I yield back.

    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    We have three bills before us today.
    First, we will consider H.R. 5751, the Golden Spike 150th 
Anniversary Act sponsored by Natural Resource Committee Chairman Rob 
Bishop of Utah. Chairman Bishop's bill prepares for the 
sesquicentennial celebration of the completion of the Transcontinental 
Railroad on May 10, 2019.
    The completion of the Transcontinental Railroad, consummated with 
the driving of the final spike at Promontory Summit, transformed 
America. It finished the great race across the frontier between the 
Union Pacific and Central Pacific Railroads.
    It is difficult today to remember how revolutionary this event was 
for our Nation. On that day, for the first time, the American continent 
was connected both by railroad and the telegraph. The 3,000-mile 
journey from New York to San Francisco that had taken weeks, now took 
only days. Messages that took days by Pony Express rider now took only 
seconds.
    The Golden Spike 150th Anniversary Act will recognize the Golden 
Spike National Historic Site by redesignating it as Golden Spike 
National Historical Park. Additionally, the bill ensures that other 
sites and structures critical to the history, construction, and legacy 
of the Transcontinental Railroad are recognized and linked together in 
a new Transcontinental Railroad Network.
    The bill will also help to restore the Federal Government as a good 
neighbor by ensuring neighboring landowners and the Park Service can 
work together to expedite minor projects that crisscross park and 
private boundaries.
    Next, we will consider H.R. 5597, offered by Congressman Stewart of 
Utah. H.R. 5597 reflects a well-balanced compromise that has been 
achieved by Congressman Stewart and his staff who have worked 
diligently with local communities and experts in biology and ecology.
    Specifically, this bill authorizes a transportation and utility 
corridor through the Red Cliffs National Conservation Area in 
Washington County, Utah. The much needed corridor will reduce traffic 
congestion while simultaneously improving the air quality of the area. 
This legislation also adds 6,835 acres to the Red Cliffs Desert 
Reserve, created in 1996 to provide additional habitat for the Mojave 
desert tortoise.
    Finally, H.R. 5875, introduced by Delegate Bordallo of Guam, seeks 
to address parity concerns between the 50 states and U.S. territories 
with regard to the formulas within the Pittman-Robertson and Dingell-
Johnson conservation programs.
    While the territories are included in the statutory definition as 
``states,'' they are not afforded an opportunity to receive an equal 
share of Pittman-Robertson and Dingle-Johnson funding. Delegate 
Bordallo's legislation provides the Secretary of the Interior greater 
flexibility in apportioning conservation funds and requires parity 
between the states and territories with respect to funding for basic 
hunter education programs.
    I'd like to thank our witnesses for appearing before the 
Subcommittee today and look forward to hearing their testimony. With 
that, I yield back and recognize the Ranking Member for her opening 
statement.

                                 ______
                                 

    Mr. McClintock. I now recognize the Ranking Member for her 
opening statement.

    STATEMENT OF HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Mr. Chairman, and thank you to the 
witnesses for providing your testimony for this hearing.
    Today, we are considering three bills related to the 
management, designation, and funding of Federal land that falls 
under the jurisdiction of this Subcommittee.
    First, H.R. 5597, introduced by Representative Stewart, 
amends and renews the Desert Tortoise Habitat Conservation Plan 
developed by Washington County, Utah. This includes the 6,800-
acre expansion to Red Cliffs Desert Reserve in exchange for the 
construction of a 300-foot-wide northern transportation 
corridor through the reserve.
    The proposed transportation corridor would, unfortunately, 
run through the habitat for the threatened Mojave Desert 
tortoise, and would, as determined by the U.S. Fish and 
Wildlife Service, violate the terms of the Habitat Conservation 
Plan. While I respect this proposal and years-long planning 
effort for a transportation corridor to accommodate population 
growth in Washington County, the bill precludes the 
environmental review and public involvement process typically 
required when dealing with habitat of endangered or threatened 
species.
    Disrupting the habitat of the threatened Mojave Desert 
tortoise could set a precedent for counties to supersede 
habitat conservation plans when local development conflicts 
with the needs of federally funded and federally protected 
species. We can and must work together to ensure that our 
public lands are managed in a manner that balances conservation 
with economic development.
    Second, Chairman Bishop's bill, H.R. 5751, redesignates the 
Golden Spike National Historic Site as the Golden Spike 
National Historical Park, and directs the Secretary of the 
Interior to establish a program known as the Transcontinental 
Railroad Network within the National Park Service. The 
completion of the first transcontinental railroad in the United 
States took place on May 10, 1869 in Promontory, Utah. The 
roughly 1,900-mile system of tracks that linked the Pacific and 
Atlantic Coasts for the first time in the Nation's history was 
built mostly by hand, with workers laboring tirelessly to place 
each spike over the course of 6 years.
    I would like to congratulate Chairman Bishop and all the 
members of the Utah's House congressional delegation for the 
introduction of this legislation. This bill is a fitting 
commemoration of the 150th anniversary of the historic 
connection of the American coasts by rail, which had a 
tremendous impact on our country's economic and cultural 
development.
    However, I would also like to note that the Golden Spike 
National Historic Site also strives to honor the legacy of 
early Chinese immigrants. Once the site received Federal 
protection and began to develop facilities to accommodate 
public visitation, administrators selected a unique quartzite 
stone, which is visible in the rock work of the visitor center 
external walls.
    I am actually reading from the National Park Service 
website that talks about a legacy from the Far East. I am 
hopeful that in the creation of the national park within the 
National Park Service of the Transcontinental Railroad Network, 
that the work of the Chinese immigrants that was a substantial 
labor force that completed the railroad is also acknowledged. 
Many of the Chinese Americans are attempting to rebuild that 
history, and I think this would be an amazing place for them to 
start.
    The third bill we will be discussing today is H.R. 5875, 
from Representative Bordallo. This proposal amends the Pittman-
Robertson Wildlife Restoration Act and the Dingell-Johnson 
Federal Aid in Sport Fish Restoration Act to allow United 
States territories and the District of Columbia to enjoy equal 
funding considerations for wildlife restoration efforts, 
sportfishing, aquatic education, wetlands restoration, and 
boat-related activities.
    Since the inception of the Pittman-Robertson and Dingell-
Johnson Acts, approximately $18 billion of taxes have been 
directed from sport hunting and fishing to states for 
conservation and recreation projects. This bipartisan 
legislation would remove outdated and arbitrary caps in current 
law that prevent our five U.S. territories and the District of 
Columbia from receiving full state-equivalent shares of this 
Federal funding at no cost to the taxpayers.
    I am pleased to see a bipartisan effort to do the right 
thing, and I look forward to learning more of this effort from 
Representative Bordallo.
    With that, Mr. Chair, I yield back the balance of my time.

    [The prepared statement of Ms. Hanabusa follows:]
   Prepared Statement of the Hon. Colleen Hanabusa, Ranking Member, 
                     Subcommittee on Federal Lands
    Thank you, Mr. Chairman. And thank you to the witnesses for 
providing your testimony for this hearing.
    Today, we are considering three bills related to the management, 
designation, and funding of Federal land that fall under the 
jurisdiction of this Subcommittee.
    First, H.R. 5597, introduced by Representative Stewart, amends and 
renews the Desert Tortoise Habitat Conservation Plan, developed by 
Washington County, Utah. This includes a 6,800-acre expansion to Red 
Cliffs Desert Reserve in exchange for the construction of a 300-foot-
wide northern transportation corridor through the Reserve.
    The proposed transportation corridor would unfortunately run 
through habitat for the threatened Mojave desert tortoise, and would, 
as determined by the U.S. Fish and Wildlife Service, violate the terms 
of the Habitat Conservation Plan.
    While I respect this proposal and the years-long planning effort 
for a transportation corridor to accommodate population growth in 
Washington County, the bill precludes the environmental review and 
public involvement process typically required when dealing with the 
habitat of endangered or threatened species.
    Disrupting the habitat of the threatened Mojave desert tortoise 
could set a precedent for counties to supersede habitat conservation 
plans when local development conflicts with the needs of federally-
protected species. We can and must work together to ensure that our 
public lands are managed in a manner that balances conservation with 
economic development.
    Second, Chairman Bishop's bill, H.R. 5751, redesignates the Golden 
Spike National Historic Site as the Golden Spike National Historical 
Park, and directs the Secretary of the Interior to establish a program 
known as the Transcontinental Railroad Network within the National Park 
Service.
    The completion of the first transcontinental railroad in the United 
States took place on May 10, 1869 in Promontory, Utah. The roughly 
1,900-mile system of tracks that linked the Pacific and Atlantic coasts 
for the first time in the Nation's history was built mostly by hand, 
with workers laboring tirelessly to place each spike over the course of 
6 years.
    I would like to congratulate Chairman Bishop, and all the Members 
of Utah's House congressional delegation, for the introduction of this 
legislation. This bill is a fitting commemoration of the 150th 
anniversary of the historic connection of the American coasts by rail, 
which had a tremendous impact on our country's economic and cultural 
development.
    The third bill we will be discussing today is H.R. 5875 from 
Representative Bordallo. This proposal amends the Pittman-Robertson 
Wildlife Restoration Act and the Dingell-Johnson Federal Aid in Sport 
Fish Restoration Act to allow U.S. territories and the District of 
Columbia to enjoy equal funding considerations for wildlife restoration 
efforts, sportfishing, aquatic education, wetlands restoration, and 
boat-related activities.
    Since the inception of the Pittman-Robertson and Dingell-Johnson 
Acts, approximately $18 billion of taxes have been directed from sport 
hunting and fishing to states for conservation and recreation projects. 
This bipartisan legislation would remove outdated and arbitrary caps in 
current law that prevent our five U.S. territories and the District of 
Columbia from receiving full, state-equivalent shares of this Federal 
funding, at no cost to taxpayers. I am pleased to see a bipartisan 
effort to do the right thing. I look forward to learning more about 
this effort from Representative Bordallo.
    With that, Mr. Chairman, I yield back the balance of my time.

                                 ______
                                 

    Mr. McClintock. Great, thank you. We will now move on to 
consideration of each of the bills.
    We will begin with H.R. 5751.
    I would ask the witnesses to keep their oral statements to 
5 minutes. We have some helpful timing lights to keep you 
within those rails. If you have testimony on more than one 
bill, we would ask that you give all of that testimony within 
the 5 minutes the Chair allotted.
    With that, I will introduce Chairman Rob Bishop to present 
his bill.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. I appreciate this opportunity of coming here 
and talking about this bill.
    Next year will be the 150th birthday of this historic 
event. And I think it is bigger than just Golden Spike itself. 
Not only is the Golden Spike the place where the United States 
was finally unified for the first time and we were able to go 
from ocean to ocean, but in that entire area are a whole bunch 
of other entities that illustrate how transportation has 
changed the course of America.
    So, we have not only areas in which we talk about pioneers 
coming in wagons, but other areas in which we talk about trains 
and train transportation, and how that revolutionized America, 
but also within walking distance of the Golden Spike is also an 
entity that was responsible for the motors that put the space 
shuttle into flight.
    There is an entire corridor or area in which we can talk 
about the significance of transportation, and it can be a 
learning experience for people coming up there. I am excited 
about the changes that could go in this place. It is a 
significant part of American history, and more people need to 
have the access that can be provided not just by the 
redesignation, but also by the historic trail system that is 
going to be resurrected, developed.
    We have done this in other areas. This is going to be for 
transportation now, so I am excited about this. I think it is a 
good thing. And I am looking forward to a heck of a good 
celebration come May of next year, when we celebrate the 150th 
anniversary of the uniting of this Nation together. I invite 
you all out to that event.
    Mr. McClintock. With that, we will first hear testimony 
from Mr. Daniel Smith, Deputy Director of the National Park 
Service.
    Mr. Smith, welcome.

 STATEMENT OF P. DANIEL SMITH, DEPUTY DIRECTOR, NATIONAL PARK 
    SERVICE, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Smith. Mr. McClintock, Ranking Member Hanabusa, and 
members of the Subcommittee, thank you for the opportunity to 
present the Department of the Interior's views on H.R. 5751, 
the Golden Spike 150th Anniversary Act.
    I would like to submit our full statement on this bill for 
the record, and summarize the Department's views.
    In addition, I would like to submit a statement for the 
record on H.R. 5597 and H.R. 5875, so that any comments on that 
would be referred to the BLM or to the U.S. Fish and Wildlife 
Service.
    The Department supports redesignating Golden Spike National 
Historic Site as Golden Spike National Historical Park, which 
is in keeping with Secretary Zinke's commitment to highlight 
less-visited units of the National Park System as we approach 
the celebration of the 150th anniversary of the May 10, 1869 
Last Spike Ceremony marking the completion of the first 
transcontinental railway. This is a fitting time to enact this 
redesignation.
    The Department supports the goals of the other provisions 
of H.R. 5751, but has concerns about them and would like to 
work with the Committee on amendments to address those 
concerns.
    Golden Spike preserves 2,735 acres of land where the Union 
Pacific Railroad and the Central Pacific Railroad came together 
to form the first transcontinental railroad. Set in a vast, 
open landscape mostly unchanged from 1869, it retains an 
unparalleled concentration of historic transcontinental 
railroad engineering features, archeological sites, and 
associated cultural landscape elements. It is the only National 
Park Service unit that preserves physical evidence of the 
construction, completion, and maintenance of the 
transcontinental railroad.
    Golden Spike was first designated a 7-acre national 
historic site on April 2, 1957 by Secretary of the Interior 
Fred Seaton. Eight years later, Congress authorized the 
acquisition of approximately 2,200 acres of land, including 15 
miles of historic railroad grade, and placed it under NPS 
administration. The boundary was expanded by 532 acres in 1980, 
mainly to protect additional cultural features.
    Today, Golden Spike is the second-largest national historic 
site in the National Park System. Given its size and the 
complexity of the resources, the Department believes that it is 
wholly appropriate to redesignate Golden Spike National 
Historic Site as Golden Spike National Historical Park.
    This bill would also establish the Transcontinental 
Railroad Network program. The Department supports the goal of 
raising the profile of other transcontinental railroad sites 
and resources, and promoting opportunities for visitors to 
learn about this chapter of our Nation's history. However, we 
note that there has been no study conducted to define the 
significance of the objects or sites that would be commemorated 
or highlighted as transcontinental railroad sites and 
resources.
    The Department would like to work with the Committee to 
further clarify how the proposed network would function. At the 
time when the Department is focusing resources on reducing the 
NPS's $11.6 billion deferred maintenance backlog and addressing 
other critical National Park Service needs, the network and the 
infrastructure needed to support it would be difficult to 
prioritize at this time.
    The bill also includes sections regarding activities 
adjacent landowners may propose to undertake on NPS lands that 
meet the definition of ``historical crossing'' and related to 
invasive species. The Department is concerned that these 
sections would create an unnecessary new process that is too 
broad and does not align with laws, regulations, and policies 
that generally apply to all NPS units.
    In keeping with our desire to be a good neighbor, we would 
like to work with the Committee to address adjacent landowners' 
interests and concerns about rights-of-way and special use 
permits without establishing a park-specific process to address 
issues that also affect other parks.
    Mr. Chairman, this concludes my statement, and I would be 
pleased to answer any questions you may have.

    [The prepared statement of Mr. Smith follows:]
Prepared Statement of P. Daniel Smith, Deputy Director, Exercising the 
 Authority of the Director of the National Park Service, Department of 
                              the Interior
                         Statement on H.R. 5751
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee, thank you for the opportunity to present the Department 
of the Interior's views on H.R. 5751, a bill to redesignate Golden 
Spike National Historic Site and to establish the Transcontinental 
Railroad Network.
    The Department supports redesignating Golden Spike National 
Historic Site as Golden Spike National Historical Park, which is in 
keeping with Secretary Zinke's commitment to highlight less-visited 
units of the National Park System (System). As we approach the 
celebration of the 150th anniversary of the May 10, 1869, ``Last 
Spike'' ceremony marking the completion of the first transcontinental 
railway, this is a fitting time to enact this redesignation. The 
Department supports the goals of the other provisions of H.R. 5751, but 
has concerns about them, as explained in this statement, and would like 
to work with the Committee on amendments to address those concerns.
    Section 3 of H.R. 5751 would redesignate Golden Spike National 
Historic Site (Site) as Golden Spike National Historical Park (Park) 
and include it in the Transcontinental Railroad Network that would be 
established by Section 4. The Site preserves 2,735 acres of land where 
the Union Pacific Railroad and the Central Pacific Railroad came 
together to form the first transcontinental railroad, linking the 
United States politically, economically and physically. Set in a vast 
open landscape mostly unchanged from 1869, the Site retains an 
unparalleled concentration of historic transcontinental railroad 
engineering features, archeological sites, and associated cultural 
landscape elements. It is the only System unit that preserves physical 
evidence of the technology and methods involved in construction, 
completion, and maintenance of the transcontinental railroad. The 
National Park Service (NPS) operates replica locomotives ``Jupiter'' 
and ``No. 119'' daily in the summer. These provide visitors with a 
unique opportunity to learn about the transcontinental railroad.
    The transcontinental railroad was among the greatest technological 
feats of the 19th century and represents one of the most ambitious and 
expensive projects ever undertaken by the Federal Government. The 
daunting task of construction across vast expanses of the country, 
within a relatively short time frame, required the government to forge 
creative partnerships with private corporations to accomplish this 
unprecedented construction feat. The legacy of this government-
corporate partnership, and the fierce competition it spawned between 
rival railroad companies, is clearly reflected in the parallel grades 
and other features. Thousands of people, including Civil War veterans, 
Buffalo Soldiers, Mormons, and American Indians, as well as immigrants 
from Ireland, China, and other nations, were employed in the railroad's 
construction, often toiling under the harshest of conditions in some of 
the most remote and difficult landscapes of the West.
    The Site offers a walking trail and two opportunities to drive the 
transcontinental railroad grade and see what workers were building in 
1869, including the ``10 Miles of Track, Laid in one Day'' sign where 
the Central Pacific Railroad built 10 miles and 56 feet of track on 
April 28, 1869.
    Golden Spike National Historic Site was first designated a national 
historic site on April 2, 1957, by Secretary of the Interior Fred 
Seaton using the authority of the 1935 Historic Sites Act. The Site 
consisted of 7 acres of land owned by the Central Pacific Railway 
Company. Eight years later, through Public Law 89-102, enacted July 30, 
1965, Congress authorized the acquisition of approximately 2,200 acres 
of land for the Site and placed it under the administration of the NPS. 
Most of the land acquisition, which included 15 miles of historic 
railroad grade and associated archeological features that remained from 
the construction, was completed in 1966 and 1967. The Site's boundary 
was expanded by 532 acres through Public Law 96-344, enacted September 
8, 1980, mainly to protect additional cultural features.
    The NPS encourages Congress to follow a standard pattern of 
nomenclature for units of the System, and prefers that the term 
``national historical park'' be reserved for units of greater physical 
extent and complexity than typical national historic sites, which are 
sometimes smaller than 1 acre with a single historic structure. Today, 
among System units that are designated ``national historic sites,'' 
Golden Spike, at 2,735 acres, is second in size only to the Sand Creek 
Massacre National Historic Site. Given the Site's size and the 
complexity of the resources that are managed at the Site, the 
Department believes that it is wholly appropriate to redesignate Golden 
Spike National Historic Site as Golden Spike National Historical Park.
    Section 4 would establish a Transcontinental Railroad Network 
program (Network). The Department supports the goal of raising the 
profile of other transcontinental railroad sites and resources and 
promoting opportunities for visitors to learn about this chapter in our 
Nation's history. However, we note that there has been no study 
conducted to define the significance of the objects or sites that would 
be commemorated or highlighted as transcontinental railroad sites and 
resources. The Department would like to work with the Committee to 
further clarify how the proposed Network would function. At a time when 
the Department is focusing resources on reducing the NPS's $11.6 
billion deferred maintenance backlog and addressing other critical 
national park needs, the Network and the infrastructure needed to 
support it would be difficult to prioritize.
    Section 5 would require the Park Superintendent to enter into 
agreements with adjacent landowners regarding activities the landowners 
may propose to undertake on NPS lands that meet the definition of 
``historical crossing.'' This term is not commonly found in NPS 
legislation. It is defined in H.R. 5751 as ``a corridor across 
historical railroad rights-of-way within the Park that have been used 
by adjacent landowners in an open manner in the past 10 years for 
vehicle, farm machinery, or livestock travel, or where existing utility 
or pipelines have been placed.'' Adjacent landowners may propose any 
activity. H.R. 5751 does not limit the types of proposed activities to 
only activities that have occurred previously. Within 30 days of the 
notice from an adjacent landowner's proposed activity, the Park 
Superintendent would be required to approve or disapprove the proposed 
activity.
    This section would create a Park-specific process and timeline and 
name the Park Superintendent as the official to whom the processes are 
delegated. NPS superintendents currently have the delegated authority 
to approve or deny requests from stakeholders related to many types of 
activities on NPS lands, including issuing special use permits, 
approval of amendments, and renewals of existing rights-of-way, 
pursuant to Director's Order #53: Special Park Uses. Authority to 
approve new requests for rights-of-way is delegated to NPS regional 
directors, also pursuant to Director's Order #53. The Department is 
concerned that this section would create an unnecessary new process 
that is too broad and does not align with laws, regulations, and 
policies that generally apply to all units of the System. In keeping 
with our desire to be a good neighbor, we would like to work with the 
Committee to address adjacent landowners' interests and concerns about 
rights-of-way without establishing a Park-specific process to address 
issues that other parks also face.
    Section 6 would require the Park Superintendent to authorize 
adjacent landowners to participate in the eradication of invasive 
species on NPS land within 30 days of such a request. This section, 
like Section 5, would create a Park-specific process and timeline and 
name the Park Superintendent as the official to whom the processes are 
delegated. NPS superintendents currently have the delegated authority 
to approve or deny requests from stakeholders to participate in 
eradication of invasive species, pursuant to Director's Order #7: 
Volunteers-in-Parks. The Department is concerned that Section 6, like 
Section 5, would create an unnecessary new Park-specific process that 
is too broad and does not align with laws, regulations, and policies 
that generally apply to all units of the System. Again, in keeping with 
our desire to be a good neighbor, the Department would like to work 
with the Committee to address adjacent landowners' interests and 
concerns about invasive species eradication without establishing a 
Park-specific process to address issues that other parks also face.
    With visitation at Golden Spike National Historic Site on the rise 
for several years now, the NPS looks forward to working with partners 
to host a grand and memorable 150th anniversary event. The 
sesquicentennial year presents unique opportunities to increase 
partnerships in support of the park, as well as increase awareness and 
understanding of the transcontinental railroad's significant role in 
our Nation's history.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.

                                 ______
                                 

Questions Submitted for the Record by Rep. McEachin to Deputy Director 
                            P. Daniel Smith

    Question 1. I am extremely displeased with the National Park 
Service's announcement yesterday that it is proposing to roll back a 
regulation prohibiting inhumane and scientifically unjustified methods 
of hunting on National Preserve lands in Alaska. I have opposed 
attempts to roll back this regulation and continue to believe that 
these hunting methods have no place on Federal lands. NPS is 
statutorily mandated to conserve wildlife species on National Preserve 
lands and in 2015, after an extensive, multi-year engagement process, 
NPS implemented the current common-sense wildlife management 
regulations. Please explain how the Service can disregard all of that 
work and do a complete 180 on its position.

    Answer. Since the 2015 final rule (Alaska; Hunting and Trapping in 
National Preserves, 80 FR 64325) was implemented, Secretary Zinke has 
issued two Secretarial Orders (3347, 3356) regarding how the Department 
should manage recreational hunting and trapping in the lands and waters 
it administers. These orders include direction representing the 
Secretary's desire to better collaborate with state, tribal, and 
territorial partners.
    The proposed changes to regulations (Alaska; Hunting and Trapping 
in National Preserves, Docket Number 1024-AE38), are part of the 
National Park Service's (NPS) efforts to work cooperatively with the 
state of Alaska to ensure that hunting regulations for adjacent lands 
and waters are complementary. Taking into account the Secretarial 
Orders described above, NPS has reconsidered its earlier conclusions 
and has proposed allowing these previously prohibited practices, 
consistent with the goal of aligning its rules with those of the State.
    The proposed rule was published in the Federal Register on May 22, 
2018, and is currently open for public comment. NPS will also be 
conducting an environmental assessment of the proposed changes, 
pursuant to the National Environmental Policy Act. Once the public 
comment period ends and the environmental assessment is completed, the 
NPS will review the comments and that input will inform the final rule, 
which would also be published in the Federal Register. The final rule 
would be effective 30 days after this publication.

                                 ______
                                 

    Mr. McClintock. Great. Thank you for your testimony.
    I will defer to the Committee Chairman to make our next 
introduction.
    Mr. Bishop. Yes. I appreciate all the witnesses who are 
here. I have worked with almost all of you very significantly 
over the past. But I would like to introduce Mr. Foxley before 
he gives his testimony this time.
    Mr. Foxley comes from Box Elder County, which is my home 
county, as well. Admittedly, his father was mayor of the other 
town in Box Elder, and he graduated from the wrong high school 
in the county. But despite that fact, he still survived in some 
particular way.
    I met him in the beginning when I was a young legislator 
and he was the Deputy Lieutenant Governor for the state of 
Utah. Since that time, we have worked on a whole number of 
issues specifically to help benefit the state of Utah and its 
citizens. This is only the recent of a whole litany of 
collaborative efforts we have had. I appreciate him being here, 
although I believe in your vast history this is the first time 
you have actually addressed Congress, in which case it isn't 
that big of a deal. So, I welcome Mr. Foxley, and I appreciate 
you for recognizing it, Mr. Chairman.
    Mr. McClintock. Mr. Foxley.

STATEMENT OF DOUG FOXLEY, CHAIRMAN, TRANSCONTINENTAL RAILROAD, 
       150TH CELEBRATION COMMISSION, SALT LAKE CITY, UTAH

    Mr. Foxley. Thank you, Chairman Bishop. Thank you, Chairman 
McClintock and Ranking Member Hanabusa, and members of the 
Subcommittee. My name is Douglas Foxley, and I am Chair of the 
Transcontinental Railroad Celebration Spike 150 Commission to 
celebrate and commemorate the ``wedding of the rails'' with the 
driving of the Golden Spike. The celebration will be held at 
Promontory Summit on Friday, May 10, 2019, as you have heard, 
in Congressman Bishop's district.
    The Spike 150 Commission was established in early 2017 by 
an act of the legislature and the governor of the state of 
Utah. I think all those who have spoken today have talked about 
the historical importance of this, so I will not go into that.
    I was asked by Governor Gary Herbert to chair this event, 
and I asked Congressman Bishop and my good friend, Spencer 
Ficklin Stokes, to co-chair this event with me. Mr. Stokes was 
at the 100th anniversary celebration, carried on his shoulders, 
on his father's shoulders, because his father wanted Spencer to 
appreciate later in life that which occurred here.
    At the 100th Celebration of the Driving of the Golden 
Spike, many Federal and state dignitaries came to Promontory 
Summit, along with John Wayne. Mr. Wayne will not be at the 
150th celebration, at least I don't think so, but we invite you 
to join Congressman Bishop and also Congressman Curtis, who 
will be celebrating his birthday there, along with Congressman 
Stewart at this landmark event next year.
    To celebrate the 150th, Union Pacific is bringing in from 
Cheyenne, Wyoming two historic steam engines: the 4014, called 
``The Big Boy'' because it is the largest steam engine ever 
built, along with the 844. They will be at Ogden Union Station 
in the Champagne Pose, where a large gala will be held on the 
night of May 9. Move over, Winter Olympics, we are going to 
have the big celebration.
    The next day, we will have a presentation from a world 
class historian of Promontory Summit and enjoy a performance by 
the world-renowned Tabernacle Choir, the Utah Symphony, and a 
yet-to-be-announced major guest artist. Yes, the actual Golden 
Spike will hopefully make its reunion debut at the site that 
day.
    In anticipation of the May 10 event, I met with Congressman 
Bishop and his staff almost a year ago, and they suggested this 
idea of designating the current historic site as a national 
historic park. Congressman Bishop charged me with getting all 
of the ranchers and adjacent landowners, along with the elected 
Box Elder County officials, on board before proceeding with 
this initiative. I am proud to say that in working with Utah 
State Representative Scott Sandall, who brought the ranchers 
together and who also happens to be one of the adjacent 
landowners, we accomplished this task. This effort is supported 
by the Utah State Legislature, the governor of Utah, and the 
entire Utah congressional delegation.
    Why is this national historic park designation important? 
Why is it worth doing? In the history of this amazing country, 
this place, virtually unspoiled, recognizes that President 
Lincoln and others thought big. President Lincoln envisioned a 
transcontinental railroad. And even though the Civil War was 
raging, he encouraged Congress to pass the Transcontinental 
Railroad Act in 1862, which they did. We are hoping, actually, 
to have a copy of that Act on display at the State Capitol 
building.
    After the Civil War ended, this effort came together, and 
many worked together: Chinese, Mormon Graders, Irish, and Civil 
War veterans of both parties. It is our hope and our belief 
that if this designation occurs, that it will once again re-
engage a new generation with the great historic event which 
occurred here this time.
    Members, I encourage you to support this bill, and I thank 
you for this opportunity of being able to speak today.

    [The prepared statement of Mr. Foxley follows:]
     Prepared Statement of Douglas S. Foxley, Chairman of the Utah 
       Transcontinental Railroad Celebration Spike 150 Commission
                         Statement on H.R. 5751
    Chairman Bishop, Chairman McClintock, Ranking Member Hanabusa and 
members of the Subcommittee, my name is Douglas S. Foxley and I am the 
Chair of the Utah Transcontinental Railroad Celebration Spike 150 
Commission to commemorate the ``wedding of the rails'' with the driving 
of the Golden Spike. The celebration at Promontory Summit will take 
place on May 10, 2019, in Congressman Bishop's district. The Spike 150 
Commission was established in early 2017 by an act of the Utah State 
Legislature and governor of the state of Utah.
    One of the most iconic and life-altering events in America's 
history--the completion of the Transcontinental Railroad--happened in 
Utah on May 10, 1869. Through a series of activities and events, the 
Spike 150 Commission aims to inspire, educate, and reflect on the 
Transcontinental Railroad legacy as it unifies Americans to see that 
great things are possible with vision, hard-work, dedication, and 
collaboration.
    As you know, but for the Civil War, this event was the most 
historic event of the 19th century. It was at the time the equivalent 
of the moon shot. Ironically, a hundred years later rockets made near 
the site by Orbital ATK allowed man to walk on the moon.
    I was asked by Governor Gary Herbert to chair this event and I 
asked Congressman Bishop's and my good friend Spencer Ficklin Stokes 
who is here today to co-chair this event with me. Mr. Stokes was at the 
100th anniversary celebration, carried on his shoulders by his father 
to appreciate what it signified. At the 100th Celebration of the 
Driving of the Golden Spike, many Federal and state dignitaries came to 
Promontory Summit along with John Wayne. Mr. Wayne will not be at the 
150th celebration, at least I don't think so, but we invite you to join 
Congressman Bishop and the many other dignitaries slated to attend this 
landmark event next year.
    To celebrate the 150th, Union Pacific is bringing in from Cheyenne, 
Wyoming two historic steam engines: the 4014, called ``The Big Boy'' 
because it is the largest steam engine ever built along with the 844. 
They will be at Ogden Union Station in the ``Champagne Pose'' where a 
large Gala will be held on the night of May 9. The next day we will 
have a presentation from a world class historian at Promontory Summit 
and enjoy a performance by the world renowned Mormon Tabernacle Choir, 
the Utah Symphony, and a yet-to-be announced major guest artist. Yes, 
the actual Golden Spike will hopefully make it's reunion debut on-site 
that day too.
    In anticipation of the May 10 event, I met with Congressman Bishop 
and his staff almost a year ago where they suggested the idea of 
designating the current National Historic Site as a National Historical 
Park. Congressman Bishop charged me with getting all of the ranchers 
and adjacent landowners along with the elected Box Elder County 
officials on board before proceeding with this initiative. I am proud 
to say that in working with Utah State Representative Scott Sandall, 
who brought the ranchers together and who also happens to be one of the 
adjacent landowners, we accomplished this task. This effort is 
supported by the Utah State Legislature, the governor of Utah, and the 
entire Utah congressional delegation.
    Why is this National Historical Park designation important? Why is 
this worth doing? In the history of our amazing country, this place, 
virtually unspoiled, recognizes that President Lincoln and others 
`thought big.' President Lincoln envisioned a transcontinental railroad 
and even though the Civil War was raging, he encouraged Congress to 
pass the Transcontinental Railroad Act in 1862 which they did. In fact, 
President Lincoln personally established the eastern terminus of the 
railroad, Mile Marker Zero, in Council Bluffs, Iowa.
    After the Civil War, attention was focused on bringing this vision 
to life. Competing groups, one from the east, The Union Pacific, and 
one from the west, The Central Pacific Railroad, started their Race to 
Promontory and neither side at the time knew where the they would meet. 
Construction of this nationally unifying project was performed by many 
ethnic and cultural groups including the Chinese, African Americans, 
Irish, Mormon Graders, veterans of the Civil War from both sides, and 
many others. They were successful in achieving this amazing 
accomplishment with their picks and shovels, their horsepower, and 
black powder. The country was finally connected coast to coast by rail 
and telegraph. A journey from New York City to San Francisco now took 
only a week instead of months.
    It is the hope of Mr. Stokes, myself, and the Commission that we 
will connect the next generation of young men and women who will be 
carried on the shoulders of their parents that day. We hope that they 
will take it upon themselves the duty and obligation to think big and 
find ways that we can continue to unite and connect this great country 
together but also to the entire world.
    For this, along with many other reasons, the Commission to 
Celebrate the 150th Anniversary of the Driving of the Golden Spike 
overwhelming supports Congressman Bishop's H.R. 5751 redesignating the 
Golden Spike National Historic Site and establishing the 
Transcontinental Railroad Network. I hope that this Committee takes the 
appropriate action to make this happen thereby honoring and preserving 
this historic site and the effort by so many Americans to unite our 
Nation by rail.

                                 ______
                                 

    Mr. McClintock. Great, thank you very much. That concludes 
our testimony on H.R. 5751. We will now move to questions on 
the bill. I will begin.
    Mr. Foxley, you mentioned Lincoln. I have a town in my 
district named Lincoln. It was formed in 1859. But it was not 
named after Abraham Lincoln, it was named after Charles Lincoln 
Wilson, who was one of the directors of the California Central 
Railroad. It was testimony to how important the railroad was to 
my district.
    So, I may be a little biased in this. The first depot on 
the transcontinental route moving out of San Francisco and 
Sacramento was actually in Rocklin and later moved to 
Roseville, where the Union Pacific still has a major yard. You 
can travel the foothills in my district and still see the 
original tunnels, original railwork that were part of the first 
transcontinental railroad route.
    I also have Sutter's Mill in my district, which was, of 
course, the genesis of the Gold Rush. But what really made 
California economically, and what really made California an 
integral part of the Nation was the transcontinental railroad, 
so this is a pretty big deal, I think, for the country and 
particularly the many parts of it that were integral to the 
railroad itself.
    I guess the only question I really have is how would this 
network that you have mentioned work? Or maybe Mr. Smith can 
address that, as well.
    Mr. Smith. Mr. Chairman, the network would be akin to what 
we have now in the Underground Railroad to Freedom Network. It 
could be akin to the Civil Rights Sites Network that was just 
passed by Congress this last year and signed into law by the 
President.
    We do recommend that there be some type of a theme study or 
a resource study done so that we would really be able to find 
the truly significant sites that would be associated with this 
important happening of the transcontinental railroad. But we 
have those two exact examples, which went through theme studies 
so that we would know exactly what we were talking about that 
would be included in that type of network.
    Obviously, it would relate most directly to those areas on 
that first line connecting transcontinentally. But then again, 
there may be people who make a case for other sites along that 
line. And that is why a study would really help us see what is 
most significant.
    Mr. McClintock. And does this include the authority for the 
study?
    Mr. Smith. I am sorry?
    Mr. McClintock. Does this include the authority for the 
study?
    Mr. Smith. At this current time it does not. We would 
request that that be added to the bill.
    Mr. McClintock. OK. And that is the concern that you 
expressed regarding your deferred maintenance backlog and the 
other resource demands on the Department?
    Mr. Smith. Yes, those are certainly our concerns. But 
Congress is giving us studies at this time, and we do find the 
money for studies, Congressman.
    Mr. McClintock. When you look at the broad history of this 
country, and those seminal moments that really were turning 
points, I think that the meeting of the rails at Promontory is 
a sadly neglected part of our history, because it really did 
make a quantum leap in the connectivity of the country. It 
literally joined the country together. We don't really 
appreciate that today. But when you think about that quantum 
leap of weeks to cross the continent down to days, from days to 
send a message across the continent to minutes and even 
seconds, it really was remarkable.
    Mr. Smith. Mr. Chairman, I would associate myself with both 
your remarks and Chairman Bishop's remarks about the national 
significance of this rail line being completed in Utah, yes.
    Mr. McClintock. Thank you.
    Ms. Hanabusa.
    Mr. Foxley. Mr. Chairman? Mr. Chairman?
    Mr. McClintock. Yes, Mr. Foxley?
    Mr. Foxley. If I may, my great-grandfather, General Lot 
Smith, had been mustered out of the Mormon Battalion, and was 
actually at Sutter's Mill when gold was discovered. He was 
called back to Salt Lake City by Brigham Young. It took him 
3\1/2\ weeks to get from Sutter's Mill to Salt Lake City. So, I 
would be extremely supportive of what is going on here, but as 
you know, your city of Sacramento has an amazing railroad 
museum, the premier railroad museum. And we are hoping that 
sites like that: Reno, Omaha, Ogden, and others, would be 
incorporated in this network. It is a great story to be told.
    Mr. McClintock. Even better.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Smith, the bill authorizes adjacent landowners to 
participate in the removal of invasive species on Park Service 
land. I assume that you have had this done before. How does 
that process work?
    Mr. Smith. Yes. The Park Service across the country, in 
removing invasive species, has asked for all the help we can 
get. We have many programs where we have volunteers who help us 
do that. I am not familiar with the exact species that have 
overtaken the natural species of sagebrush and all that used to 
be there. But obviously, if there are issues where invasives 
need to be removed, we would coordinate and cooperate with 
landowners to help us accomplish that.
    Anything that helped this landscape appear as it did in 
1869 would be something that, from the historical aspect, we 
would try to recreate.
    Ms. Hanabusa. You mentioned this yourself in your 
testimony, but the bill does not authorize any additional money 
for the management of the Golden Spike National Historic Site. 
Do you anticipate the need for additional funds to carry out 
what is anticipated by this bill?
    Mr. Smith. At this time I don't. I do know that we are 
working currently to prepare to update the exhibits that will 
be at the visitor center there.
    There is deferred maintenance. The visitor center is a 
Mission 66 visitor center, so I know we have deferred 
maintenance monies that we will certainly be concentrating on 
to help that facility be ready for this anniversary.
    As far as staffing at this time, we do not think that this 
would be necessary. And the network would not necessarily be 
run out of Golden Spike National Historical Park. That would 
probably be run out of Washington, as we run those other sites 
currently.
    Ms. Hanabusa. The bill also authorizes the National Park 
Service to enter into agreements with adjacent landowners to 
expedite approval of projects within existing historical 
crossings. The terms of the agreement includes a 30-day time 
limit for approving the actual permit. Is that a sufficient 
amount of time for you?
    Mr. Smith. In some cases it might not be. As the 
superintendent at Colonial National Historical Park, I issued 
not hundreds, but certainly close to 100 special use permits. 
Those permits, when they are negotiated, in this case with 
landowners, can be very flexible. They can be established for 
up to 5 years before they have to be renewed. They can be 
amended.
    One of the reasons I would like to coordinate and cooperate 
with the Committee is that I think it could be done under the 
existing special-use permits that park superintendents have at 
their disposal. If there is something more unusual that I don't 
understand about the situation there at Golden Spike, I 
certainly would take that in consideration as we look for a way 
to resolve that.
    On some of these things, there might be Section 106 
consultation that is required, and that type of thing. But a 
special use permit, once it is negotiated between the park and 
the landowners, it shouldn't take any time at all to execute. 
And I would be very surprised if it is really quite the problem 
that the bill seems to think it is.
    I would say that I do not know the total specifics of the 
adjacent landowners next to this rather linear corridor that we 
have, but I had a 23-mile parkway that I was able to do 
special-use permits on while I was 10 years at Colonial, so I 
think there is a way to do that under existing processes that 
the Park Service has.
    Ms. Hanabusa. I think you can probably work with the 
Committee to have both, so that if for some reason your 
special-use permit doesn't work, that this provision could then 
kick in.
    Mr. Smith. Yes, Congresswoman, I look forward to that being 
something that we work together to make sure we assure that the 
Park Service's concerns are covered, but also that adjacent 
landowners have their issues covered.
    Again, Secretary Zinke wants us to be a good neighbor, and 
I will work to make sure that we assure that in this bill.
    Ms. Hanabusa. And, remember, we are looking at less than a 
year for the opening of this event, so you have to move very 
quickly, Mr. Smith.
    Mr. Smith. I am very much aware of that. And with the two 
chairmen looking at me, I certainly don't need much more 
direction.
    Ms. Hanabusa. Thank you. With that I yield back.
    Mr. McClintock. Chairman Bishop.
    Mr. Bishop. Thank you. I appreciate both of you here, 
testifying on this.
    Mr. Foxley, if I could just ask you, is there private-
sector involvement in this project?
    Mr. Foxley. Yes, there is. The state of Utah, in the recent 
2018 general legislature, appropriated $1 million for the 
celebration.
    In addition, Union Pacific Railroad has given us a very 
significant grant. They will contribute over $1 million, not 
only in money, but also in other things.
    The O.C. Tanner Foundation has given us a grant. If you 
were going to put a dollar amount on it, it would be in excess 
of $1 million, to have the Mormon Tabernacle Choir, the Utah 
Symphony, a major guest artist, and others. Several prominent 
families and foundations in Utah have promised and will be 
committing money to this event.
    This is, I think, an excellent example of a public-private 
partnership. We are working in conjunction with this site. We 
can make the site an even more attractive site for visitors and 
others.
    Mr. Bishop. Mr. Smith talked briefly about the network that 
we are establishing at the same time. Do you also think that 
that is going to bring attention, maybe visitation, to some of 
the lesser-known areas of interest that are around there that 
are all connected with this same story of history?
    Mr. Smith. Mr. Chairman, I think that is what happens with 
these types of networks. It brings the type of national 
attention to get to a site in Utah that has that national 
significance.
    So, I think that when the network is established, it would 
bring more attention and certainly possibly more visitation to 
the historical park.
    Mr. Bishop. Thank you. I actually was asking Mr. Foxley for 
that one, but I do appreciate your answer. It was a good one.
    Mr. Smith. I apologize.
    Mr. Bishop. No, no, that is fine.
    I am totally fascinated and happy that you are in the 
position you are right now. You have shown your ability to work 
marvels in every assignment that you have had. That is why I am 
totally confident in your ability of making sure that the 
network we have for the Underground Railroad, as well as the 
African-American Civil Rights Network will go forward. And I am 
also totally confident that this network will go forward, too, 
and will be managed brilliantly.
    So, if you want authorization for a study, I promise you, 
you have it. It is going to be in the bill.
    At the same time, I also want you to know to be careful. He 
wrote the bill. If he had my ideas in it, you may not like it 
nearly as much as the one you already have here.
    Mr. Foxley, are there some parts of history, though, that 
can be emphasized simply by making this change, and maybe some 
increases in not only the programs at the visitation facility?
    Mr. Foxley. One of the things we are working in conjunction 
with the Utah State Parks, Box Elder County, and others is to 
augment activities next year at the site, which will hopefully 
drive visitorship at the park. There will be a lot of attention 
brought upon this. Major media, both national and local, are 
highlighting what is going to happen here. And we want patrons 
who will come to the site to have a good experience.
    Close to the historic site, there is a world-renowned 
public land art, the spiral jetty. And there are many things of 
interest. We want to tie all of these together so that people 
can come to Box Elder County, and especially Brigham City, and 
eat at the Idle Isle, and enjoy the Golden Spike.
    Mr. Bishop. Thank you. And I appreciate your emphasis on 
Brigham City and not your hometown of Tremonton. You are 
getting that down properly.
    Mr. Foxley. It pains me, but I understand the politics of 
the Committee.
    [Laughter.]
    Mr. Bishop. If I can have you wearing purple instead of 
red, is that taking it too far?
    Mr. Foxley. Maybe socks.
    [Laughter.]
    Mr. Bishop. Mr. Chairman, I appreciate all the testimony. I 
am looking forward to this event next year. I think it is a 
significant one for the history of this country, and something 
which we have to remember. I will yield back.
    Mr. McClintock. Thank you.
    Are there further questions on H.R. 5751 by members of the 
Committee?
    Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman and Ranking Member 
Hanabusa. I was pleased to be asked by Chairman Bishop to be a 
co-sponsor of this, and that delights me. As was referred to by 
Mr. Foxley, I share a birthday with this commemoration. And I 
can't imagine a better way to celebrate my birthday than to 
have the Mormon Tabernacle Choir sing to me and the railroad. I 
just want to express my support not only for this bill, but for 
the celebration, as well.
    Because I shared my birthday with this, I think as a young 
man, when this was taught to me in school, I paid special 
attention. And I am worried that many of our youth don't 
appreciate what has happened there, and the commemoration. Mr. 
Foxley, maybe you can address any efforts we are making through 
the public schools to help them with an awareness of this 
issue, and anything that we can do here on a congressional 
level to bring awareness to the issue.
    Mr. Foxley. Thank you very much, Congressman. We have been 
working with the State Office of Education Superintendent, Sid 
Dixon. I am pleased to say that the Beverley Taylor Sorenson 
Arts Foundation is going to emphasize this project next year in 
grades K through 6. There is also a revised curriculum which is 
being developed for the high schools. There are library kits, 
there is going to be a massive effort.
    Craig Jessop, the former conductor of the Mormon Tabernacle 
Choir, is working with Kurt Bestor and others to have songs 
sung. There will be major coverage of the events, which will be 
broadcast that day to all of the public schools in Utah through 
KSL TV and others. So, it is a major effort.
    We have also reached out to many of the communities, in 
particular the Chinese-American community. It is our hope that 
while we cannot change the past, we can write the future. It is 
the hope of our commission that the signage at the site will be 
in both English and Chinese, for our Chinese friends and 
visitors.
    We are also hoping, and are working with a major foundation 
at this time, to have a film in Chinese for our Chinese 
tourists, so they can appreciate what happened here.
    I think, as was mentioned in earlier comments, this site--
and I didn't realize this until I got involved with this--how 
important this is to many communities, but in particular the 
Chinese communities. I recently addressed a group of Chinese 
historical workers. Congresswoman Grace Meng from New York was 
there, and others. But this site is important, and we need to 
make certain that this is a time when we are uniting all groups 
who worked on this site.
    Mr. Curtis. That is fantastic. Finally, let me just express 
my appreciation. The efforts that you have described, with that 
comment and earlier about the private partnership, demonstrate 
a tremendous amount of work on your part and on the Committee's 
part. Let me just say it is impressive, and I look forward to 
participating with the celebration next year.
    Mr. Foxley. I think you don't realize, but you accepted an 
invitation to be an honorary chair, along with Congressman 
Stewart and Congressman Bishop.
    Mr. Curtis. Yes, I didn't mention that because I haven't 
done any work. But I am pleased to be honorary chair, as well.
    Mr. Foxley. We are willing to do it for you, as long as you 
pass the bill.
    Mr. Curtis. Good. Thank you. I yield my time.
    Mr. Bishop. John has to realize when you are 149 you forget 
these things.
    Mr. Curtis. That is true. I might also just interject that 
as a Chinese speaker, I am really pleased to hear about the 
work that has taken place with that community, and would offer 
my services as an honorary chairman if I can be helpful in that 
regard at all.
    Thank you. I yield my time.
    Mr. McClintock. That concludes our hearing on H.R. 5751.
    Mr. Smith, I know you have submitted written testimony on 
the bills before us, and at this point both you and Mr. Foxley 
are certainly welcome to stay, but you are also free to go. 
Thank you again for your testimony.
    Mr. Foxley. Thank you, Mr. Chairman.
    Mr. McClintock. Next we will hear H.R. 5597, and the Chair 
would introduce Congressman Chris Stewart to explain the bill.

 STATEMENT OF HON. CHRIS STEWART, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Stewart. Thank you, Chairman. And before Mr. Foxley 
leaves the room I would like to welcome him and other members 
from my home state. And I would like to thank the Chairman and 
Ranking Member, Chairman Bishop, the Full Committee members, as 
well as members of the Subcommittee, for allowing me the 
opportunity to speak to you regarding my bill.
    This is a long title, hang in with me here, The Desert 
Tortoise Habitat Conservation Plan Expansion Act. Hereafter, we 
will just call it H.R. 5597. And Mr. Chairman, I ask for 
unanimous consent that the letters of support be added to the 
record.
    Mr. McClintock. Without objection.

    [The information follows:]

                                  Access Fund      

                                                     April 16, 2018

Hon. Chris Stewart,
323 Cannon House Office Building,
Washington, DC 20515.

Re: Desert Tortoise Habitat Conservation Plan Expansion Act, Washington 
        County, Utah

    Dear Congressman Stewart:

    Access Fund and the local rock climbing community in Washington 
County, Utah have been closely tracking the Desert Tortoise Habitat 
Conservation Plan Expansion Act--Draft Bill (HCP) which proposes 
creating additional 6,865 acre reserve for tortoise habitat known as 
Zone 6. Legislative language of the bill has not yet been disclosed to 
the public.
    The proposed boundary of Zone 6 encompasses numerous highly valued 
rock climbing resources (cliffs and boulders) known as Moe's Valley and 
the Zen area. Moe's Valley (Zone 6) is an international climbing 
destination that draws climbers both locally and from around the world 
to experience high quality rock climbing. Access Fund and the local 
climbing organization Southern Utah Climbers Association (SUCA) support 
continued access to Moe's Valley are committed to continued stewardship 
of the climbing area and the surrounding environment.
    We request language be included in the HCP bill that explicitly 
notes ``rock climbing as an appropriate recreational activity'' within 
the proposed Zone 6 under the HCP. In addition, existing trails to 
access climbing resources should be recognized and allowed along with 
appropriate stewardship and maintenance within Zone 6. Access Fund and 
SUCA are available to provide detail maps and locations of all existing 
climbing resources and access trails within Zone 6 to assist in land 
use planning efforts associated with the HCP bill.
    Thank you for your consideration of adding language to list ``rock 
climbing as an appropriate recreational activity'' within Zone 6 of the 
Desert Tortoise Habitat Conservation Plan Expansion Act--Draft Bill. 
Access Fund and SUCA have the experience, local contacts, and resources 
to help planners craft alternatives that encourage climbing while 
sustaining the health, diversity and productivity of this important 
habitat. Feel free to contact me via telephone (303-552-2843) or email 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b606a7f626e4b6a68686e78786d7e656f2564796c">[email&#160;protected]</a>) to discuss this matter further.

            Sincerely,

                                             Katie Goodwin,
                                              Public Land Associate

                                 ______
                                 

                             THE CONSERVATION FUND,
                                          Las Vegas, Nevada

                                                     March 27, 2018

Hon. Chris Stewart,
323 Cannon House Office Building,
Washington, DC 20515.

Re: Desert Tortoise Habitat Conservation Plan Expansion Act

    Dear Congressman Stewart:

    The Conservation Fund (TCF) is a national nonprofit 501(c)(3) 
organization dedicated to preserving America's land legacy by acquiring 
and protecting open space, wildlife habitat, and historic sites 
throughout the nation. TCF also assists partners in business, 
government, and the nonprofit sector with projects that integrate 
economic development and environmental protection.
    Through its distinct vision of environmental protection while 
advancing economic vitality, TCF has worked closely with Washington 
County and the State of Utah for over thirty years protecting over 
117,00 acres. We replace the premise of ``or'' with the promise of 
``and'' believing we can have a healthy environment and vibrant 
economy; protect nature and create jobs; conserve natural resources and 
use them sustainably; and support development and develop responsibly.
    We have also been involved with Washington County in furtherance of 
implementing the original Habitat Conservation Plan (HCP) agreement and 
support its renewal and continuation. We have reviewed the draft 
``Desert Tortoise Habitat Conservation Plan Expansion Act'' providing 
for the expansion of the Washington County HCP and believe it 
represents a continued balanced approach consistent with the goals and 
objectives of TCF. Expanding the HCP by creating an additional 6,865 
acre reserve, renewing the HCP agreement for an additional 25 years, 
and including many other conservation and recreation provisions as set 
forth in the legislation, will ensure the County's commitment to 
conserve resources vital to the area while using them in a way that 
invigorates future prosperity and the conservation.
    On behalf of TCF we are glad to support this important legislation 
and look forward to continuing our work and partnership with Washington 
County and the State of Utah advancing future environmental protection 
and economic vitality. If you have any questions or concerns about the 
role of TCF, or our support for this effort, please contact me directly 
at (702) 655-8167 or via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8b5beb7aabc98bbb7b6abbdaaaeb9acb1b7b6beadb6bcf6b7aabff6">[email&#160;protected]</a>

            Sincerely,

                                                 Mike Ford,
                                      Nevada and Southwest Director

                                 ______
                                 

          Dixie Metropolitan Planning Organization,
                                           St. George, Utah

                                                       May 17, 2018

Hon. Chris Stewart,
323 Cannon House Office Building,
Washington, DC 20515.

Re: Support for the Desert Tortoise Habitat Conservation Plan Expansion 
        Act

    Dear Congressman Stewart:

    The Dixie Metropolitan Planning Organization (Dixie MPO) supports 
the Desert Tortoise Habitat Conservation Plan Expansion Act based on 
our understanding that The Act would accelerate this area's ability to 
build critical transportation facilities, particularly the Northern 
Corridor and the Western Corridor.
    The Act preserves open space, adds protections to the Mohave Desert 
Tortoise, protects current recreational activities that are conducive 
to tortoise habitat, and allows for needed transportation development 
in the greater St. George area. These goals are consistent with those 
of our long-range Regional Transportation Plan and are respectful of 
both the natural and built environments of this area.
    The Act, while serving to prevent Utah School and Institutional 
Trust Land (``SITLA'') development through the creation of Zone 6, 
protects the Desert Tortoise and would still allow future development 
of two major roads of regional significance: The Northern Corridor--a 
vital transportation facility planned to prevent traffic gridlock, 
improve air quality, and aid economic development within the St. George 
Urban Area, and the Western Corridor (needed to meet transportation 
demands in 2040 and beyond).
    We must be able to build the transportation and utility 
infrastructure necessary to meet the needs of our growing community. We 
need the Northern Corridor, The Western Corridor, and the ability to 
get water and electricity into the area. The bill ensures we can meet 
these needs and offsets any negative impact on the desert tortoise and 
other environmental concerns.
    Thank you for your consideration and efforts on our behalf. Our 
area needs this bill.

            Sincerely,

                                         Myron W. Lee, MPA,
                                                          Director.

                                 ______
                                 

                                                       May 17, 2018

Hon. Orrin Hatch,
United States Senate,
104 Hart Senate Office Building,
Washington, DC 20510.

Re: Support for the Desert Tortoise Habitat Conservation Plan Expansion 
        Act

    Dear Senator Hatch:

    I write you in support of the Desert Tortoise Habitat Conservation 
Plan Expansion Act. The Act preserves open space, protects the Mohave 
Desert tortoise, protects current recreational activities that are 
conducive to tortoise habitat, and allows for needed transportation 
development in the greater St. George area. It is a great bill and 
should be passed!
    I live in the St. George area and recreate on our public lands 
regularly. The proposed Zone 6 will prevent the Utah School and 
Institutional Trust Lands (``SITLA'') from developing an area where 
people commonly mountain bike, run, hike, and rock climb. Also, this 
bill will not only protect these lands but also insure the continued 
use of this area for special events that we have personally been part 
of over the past decade. The area helps enhance to the beauty of the 
St. George area and draws many tourists in that support our local 
economy. The area also has a thriving desert tortoise population as 
well.
    Please support this bill and help it get passed. Our area really 
needs it.

            Sincerely,

                                          Steven B. Hooper,
                                                   St. George, Utah

                                 ______
                                 

                        RESOLUTION NO. 2018-09R
 A RESOLUTION SUPPORTING THE WASHINGTON COUNTY DESERT TORTOISE HABITAT 
                    CONSERVATION PLAN EXPANSION BILL

    WHEREAS, the Washington County Desert Tortoise Habitat Conservation 
Plan (HCP) has expired and needs to be renewed;

    WHEREAS, Ivins City has benefited from the HCP since 2006 by having 
open recreation space in the tortoise reserve and the ability to work 
easily with the County for tortoise recovery;

    WHEREAS, the city would like the HCP to be renewed so that the 
residents can continue to benefit from the HCP;

    WHEREAS, the utility development protocols (UDPs) are essential to 
the continued growth and vitality of the cities in Washington County;

    WHEREAS, the northern corridor is an important part of the 
infrastructure plan for future growth in the County; and

    WHEREAS, the creation of Zone 6 of the HCP ensures more open 
recreation space, mitigates for impacts from the northern corridor, and 
assists in tortoise recovery; and

    WHEREAS, it is in the best interest of the citizens of Ivins City 
for the bill to be passed.

    NOW THEREFORE, BE IT RESOLVED BY THE CITY COUNCIL OF IVINS CITY, 
STATE OF UTAH, AS FOLLOWS:

    That the Ivins City Council supports the Washington County Desert 
Tortoise Habitat Conservation Plan Expansion Bill.

This Resolution shall become effective immediately upon adoption by the 
City Council.

PASSED AND ADOPTED BY THE IVINS CITY COUNCIL, STATE OF UTAH, ON THIS 
5th DAY OF APRIL, 2018 BY THE FOLLOWING VOTE:


----------------------------------------------------------------------------------------------------------------
                                                               AYE           NAY         ABSTAIN       ABSENT
----------------------------------------------------------------------------------------------------------------
Dennis Mehr.............................................            X
Cheyne McDonald.........................................            X
Jenny Johnson...........................................            X
Miriah Elliott..........................................                          X
Ron Densley.............................................            X
----------------------------------------------------------------------------------------------------------------


                                          Chris Hart, Mayor

ATTEST:

Kari Jimenez, City Recorder

                                 ______
                                 

                                                       May 17, 2018

Hon. Mike Lee,
United States Senate,
361 Russell Senate Office Building,
Washington, DC 20510.

Re: Support for the Desert Tortoise Habitat Conservation Plan Expansion 
        Act

    Dear Senator Lee:

    I write you in support of the Desert Tortoise Habitat Conservation 
Plan Expansion Act. The Act preserves open space, protects the Mohave 
Desert tortoise, protects current recreational activities that are 
conducive to tortoise habitat, and allows for needed transportation 
development in the greater St. George area. This bill is a great 
example of positive collaboration between government entities and 
considers the needs and wants of the local citizens. I believe it 
should be passed!
    I live in the St. George area and recreate on our public lands 
regularly. I personally participate in the local cycling, hiking, and 
climbing communities, thus I know how important both Zone 6 and the 
current Desert Tortoise habitat areas are to those who love to recreate 
in the majestic beauty of Southern Utah. This bill protects areas 
important to these communities. The proposed Zone 6 will prevent the 
Utah School and Institutional Trust Lands (``SITLA'') from developing 
an area where people commonly mountain bike, hike, and rock climb. The 
area also has a thriving desert tortoise population that will benefit 
if this bill is passed.
    Please support this bill and help it get passed. Our area needs it.

            Sincerely,

                                          Dannielle Larkin,
                                                   St. George, Utah

                                 ______
                                 

                             LA VERKIN CITY
                        RESOLUTION NO. R-2018-09
 A RESOLUTION SUPPORTING THE WASHINGTON COUNTY DESERT TORTOISE HABITAT 
                    CONSERVATION PLAN EXPANSION BILL

    WHEREAS, the Washington County Desert Tortoise Habitat Conservation 
Plan (``the HCP'') has expired and needs to be renewed; and

    WHEREAS, LaVerkin City (``the City''), a municipality within 
Washington County, Utah, has benefited from the HCP since 2006 by 
having open recreation space in the tortoise reserve and the ability to 
work easily with the County for tortoise recovery; and

    WHEREAS, the City would like the HCP to be renewed so that the 
residents can continue to benefit from the HCP; and

    WHEREAS, the utility development protocols (UDPs) provided for 
therein are essential to the continued growth and vitality of the 
municipalities in Washington County; and

    WHEREAS, the northern corridor is an important part of the 
infrastructure plan for future growth in the County; and

    WHEREAS, the creation of Zone 6 of the HCP ensures more open 
recreation space, mitigates for impacts from the northern corridor, and 
assists in tortoise recovery; and

    WHEREAS, the Washington County Desert Tortoise Habitat Conservation 
Plan Expansion Bill (``the Bill''), currently proposed to be introduced 
in Congress later this Spring:

    <bullet> Expands the Red Cliffs Desert Reserve and orders the 
            renewal of the HCP; and

    <bullet> Addresses the route for and construction of the northern 
            corridor in Washington County; and

    <bullet> Re-implements the UDPs; and

    <bullet> Clarifies and/or otherwise cleans up the Bureau of Land 
            Management (``the BLM'') Resource Management Plans (``the 
            RMPs'')

    WHEREAS, passage of the Bill by Congress is in the best interest of 
the citizens of the City.

    NOW THEREFORE BE IT RESOLVED by the LaVerkin City Council:

  1.  That the City Council hereby declares and publishes its support 
            for the Washington County Desert Tortoise Habitat 
            Conservation Plan Expansion Bill proposed to be introduced 
            in Congress, for consideration and possible action, in the 
            Spring of 2018; and

  2.  That this Resolution shall be effective upon adoption; and

  3.  That the City hereby declares that (a) if any part of this 
            resolution shall be declared invalid, such declaration 
            shall not affect the validity of the remainder of this 
            resolution; (b) all resolutions or policies in conflict 
            herewith are hereby repealed; and (c) this resolution shall 
            take effect immediately upon passage.

PASSED, ADOPTED AND APPROVED this 18th day of April, 2018.

                                  Richard M. Hirschi, Mayor

ATTEST:

Christy Ballard, City Recorder

                                 ______
                                 

                   Southern Utah Climbers Coalition

Hon. Chris Stewart,
323 Cannon House Office Building,
Washington, DC 20515.

Re: Desert Tortoise Habitat Conservation Plan Expansion Act--Washington 
        County, Utah

    Dear Congressman Stewart:

    As president of the Southern Utah Climbers Coalition, I would like 
to voice our organizations support of the expansion to the Red Cliffs 
Desert Conservation area, via your bill.
    The area that comprises the expansion has been a vital area for 
numerous forms of outdoor recreation to both the residents of and 
visitors to Washington County. As the growth of the area accelerates 
the few remaining areas of open space close to town become even more of 
a refuge for both recreationalists as well as a wide range of endemic 
species like the endangered desert tortoise.
    The proposed Zone 6 expansion in your bill features numerous areas 
for rock climbing, bouldering, mountain biking, hiking, rappelling, and 
even responsible off road vehicle usage on already existing 4wd roads. 
These uses have historically co-existed with numerous desert species 
that call the cliffs and rocks home. Several recreational uses in Zone 
6 have attained world renowned status such as the bouldering in Moe's 
Valley, the rock climbing on the Zen Wall, and the mountain biking on 
the Zen Trail. These uses draw outdoor recreationalists from all over 
the world and as such are the fuel that powers the tourist sector of 
the Southwestern Utah economy.
    We request that language be included in the HCP bill that 
explicitly notes these uses as ``appropriate recreational activities 
within the proposed Zone 6 of the HCP.'' It might be valuable to note 
that public law 111 which brought the HPC into the conservation program 
included language that requires the building of the roads such as the 
new corridor road, and also requires recognition of existing roads in 
conservation zones which are necessary and used to access the 
recreation. There is one road on the February map shown as a ``proposed 
trial'' that provides access to the Zen wall and the upper gap climbing 
areas. Many times folks with disabilities have hired guiding services 
for zip lining or climbing in these areas and this dirt road that runs 
from east to west, less than \1/4\ mile long, has very light traffic, 
but needs to be included as a continued access road for motorized 
travel on zone 6 to access recreation, otherwise it would not comply 
with Public law 111, and the provisions of the Congressional 
Disabilities Act. Everything else in the map and bill we support and 
are grateful for you and the WCWCD commissioner's, the local City 
councils, the TC committee in working hard to congressionally recognize 
such uses as required continued access.
    Thank you for your consideration of this additional language to the 
bill. The Southern Utah Climbers Coalition has been involved in the 
preservation of the areas within this proposed expansion since 2004 and 
has worked with SITLA since that time to foster understanding of the 
unique nature and value of this area to local recreationalists. We also 
have a program in place working with state parks and other areas within 
the conservation zones to regulate new climbing, bolting, clean up 
areas, and are actively involved in managing and protecting both the 
recreational and the habitat in the existing areas and will continue to 
do so for the new zone 6. The turtle habitat numbers have increased in 
zone 6, we believe it is directly related to the recreational uses 
scaring away natural predators and being present to protect the species 
and the land we all want preserved for further generations to come.

            Sincerely,

                                                 Todd Goss,
                                                          President

                                 ______
                                 

                      RESOLUTION NO. 2018-04-001R
 A RESOLUTION SUPPORTING THE WASHINGTON COUNTY DESERT TORTOISE HABITAT 
                    CONSERVATION PLAN EXPANSION BILL

    WHEREAS, the Washington County Desert Tortoise Habitat Conservation 
Plan (HCP) has expired and needs to be renewed;

    WHEREAS, St. George City has benefited from the HCP since 2006 by 
having open recreation space in the tortoise reserve and the ability to 
work easily with the County for tortoise recovery;

    WHEREAS, the city would like the HCP to be renewed so that the 
residents can continue to benefit from the HCP;

    WHEREAS, the utility development protocols (UDPs) are essential to 
the continued growth and vitality of the cities in Washington County;

    WHEREAS, the northern corridor is an important part of the 
infrastructure plan for future growth in the County; and

    WHEREAS, the creation of Zone 6 of the HCP ensures more open 
recreation space, mitigates for impacts from the northern corridor, and 
assists in tortoise recovery; and

    WHEREAS, it is in the best interest of the citizens of St. George 
City for the bill to be passed.

    NOW, THEREFORE, BE IT RESOLVED BY THE CITY COUNCIL OF ST. GEORGE 
CITY IN WASHINGTON COUNTY, UTAH, that the city council supports the 
Washington County Desert Tortoise Habitat Conservation Plan Expansion 
Bill.

APPROVED AND ADOPTED by the City Council of the City of St. George, 
this 5th day of April, 2018.

Members of the Council Voting Aye

Jimmie Hughes
Michele Randall
Joe Bowcutt
Bette Arial
Ed Baca

                                         CITY OF ST. GEORGE

                                    Jonathan T. Pike, Mayor

ATTEST:

Annette Hansen, Deputy City Recorder

                                 ______
                                 

                  WASHINGTON CITY RESOLUTION R2018-06
A RESOLUTION OF WASHINGTON CITY SUPPORTING THE WASHINGTON COUNTY DESERT 
           TORTOISE HABITAT CONSERVATION PLAN EXPANSION BILL

    WHEREAS, the Washington County Desert Tortoise Habitat Conservation 
Plan (HCP) has expired and needs to be renewed; and

    WHEREAS, Washington City has benefited from the HCP since 2006 by 
having open recreation space in the tortoise reserve and the ability to 
work easily with the County for tortoise recovery; and

    WHEREAS, the city would like the HCP to be renewed so that the 
residents can continue to benefit from the HCP; and

    WHEREAS, the utility development protocols (UDPs) are essential to 
the continued growth and vitality of the cities in Washington County; 
and

    WHEREAS, although the northern corridor is an important part of the 
infrastructure plan for future growth in the County; the City Council 
has grave concerns about the close proximity of the northern corridor 
(as currently proposed) to Washington City homes and the additional 
traffic which would flow onto Washington Parkway once it connects to 
the northern corridor and the City Council is looking for all possible 
mitigations prior to that occurring; and

    WHEREAS, the creation of Zone 6 of the HCP ensures more open 
recreation space, mitigates for impacts from the northern corridor, and 
assists in tortoise recovery; and

    WHEREAS, it is in the best interest of the citizens of Washington 
City for the bill to be passed.

    NOW, THEREFORE, BE IT RESOLVED BY THE CITY COUNCIL OF WASHINGTON 
CITY IN WASHINGTON COUNTY, UTAH, that the city council supports the 
Washington County Desert Tortoise Habitat Conservation Plan Expansion 
Bill.

VOTED UPON AND PASSED by the City Council at a Regular Meeting held on 
the 25th day of April, 2018.

                                            Washington City

                                  Kenneth F. Neilson, Mayor

Attest:

Danice B. Bulloch, MMC City Recorder

                                 ______
                                 

    Mr. Stewart. One of the counties I am honored to represent 
in Utah's 2nd District is Washington County. This is a place 
unlike anywhere else in the world. It is home to beautiful red 
rocks of southern Utah, and it spreads across a stunning 
landscape from St. George to Zion National Park. Washington 
County is one of the fastest-growing counties not only in Utah, 
but actually in the entire Nation. And clearly, for a good 
reason. For those of you who have had a chance to visit this 
stunning part of the country, you would understand why.
    In 2009, the Red Cliffs National Conservation Area, known 
as the NCA, was added to the Red Cliffs Desert Reserve through 
legislation sponsored by my good friend, former Senator Bob 
Bennett, and signed into law by President Obama. The law 
clearly states that the government entities identify one or 
more alternatives for a northern transportation route. However, 
this corridor has not been implemented, and my bill seeks to 
fully implement congressional intent of this bipartisan 
compromise by authorizing a northern corridor route that is 
desperately needed.
    Over the last year, Federal and state biologists have been 
working tirelessly with Washington County, the Bureau of Land 
Management, U.S. Fish and Wildlife Service, the Utah Division 
of Wildlife Services, and other stakeholders to form a 
compromised solution that would create a convenient corridor 
that would reduce traffic congestion, improve air quality, and 
allow the county's economy to flourish.
    But also, and this is important, to minimize the effects on 
the desert tortoise and its designated conservation area.
    The plan that resulted from this coalition has become H.R. 
5597, my legislation that is being discussed today. The plan 
consists of a 300-foot-wide corridor that disrupts, and please 
listen to this, this is important, it disrupts 147 acres of the 
NCA, but makes up with that by more than 6,000 acres of prime 
tortoise habitat.
    If I could invest $147 and get more than $6,000 back I 
would certainly do that, and I think this is a good example of 
where we have made extraordinary progress in protecting this 
prime habitat.
    Not only does this bill protect the tortoise, but it also 
continues to protect recreational activities in the area, such 
as hiking, biking, and rock climbing, something that I love to 
do. It will allow residents and visitors alike to continue to 
enjoy the beauty of this region.
    The corridor created by the Desert Tortoise Habitat 
Conservation Plan is essential to the growth of Washington 
County, and the legislation has the support of cities 
surrounding the county.
    I am confident that it will benefit the current and future 
residents of Washington County and the tortoise population. The 
corridor is a big win for the conservation efforts for the 
desert tortoise and for the county, and I urge this 
Subcommittee to support this important legislation.
    Before I conclude, Mr. Chairman, I would like to recognize 
a good friend of mine, someone who I greatly respect, 
Washington County Commissioner, Dean Cox. He is new to the 
position of a commissioner, but he has been working tirelessly 
for the county for many generations and he is doing a wonderful 
job, and he is a man that I have great respect for.
    With that, Mr. Chairman, thank you for this opportunity, 
and I yield back.
    Mr. McClintock. Great, thank you very much. We will now 
hear from Mr. Paul Van Dam, a member of the Board of Directors 
for Conserve Southwest Utah. He comes to us today from, is it 
Ivins, Utah? Ivins.
    Welcome to the Committee.

STATEMENT OF PAUL VAN DAM, MEMBER, BOARD OF DIRECTORS, CONSERVE 
                  SOUTHWEST UTAH, IVINS, UTAH

    Mr. Van Dam. Thank you, Mr. Chairman, members of the 
Committee. My pleasure to be here today. My name is Paul Van 
Dam, and I represent Conserve Southwest Utah, which is a local, 
grass-roots conservation organization in Washington County. We 
have over 10 years' experience with the matter under 
consideration.
    I was Executive Director of the organization in 2008, when 
a bill involving the Northern Corridor, the road now included 
in H.R. 5597, first brought it to the public's attention. I 
also testified in January of 2016 at a hearing on the issue in 
St. George, where Mr. Stewart was also present.
    Congressman Stewart's bill deals with more than just the 
Northern Corridor. But this is the thrust of the bill. We have 
watched this effort to get a highway through critical habitat 
evolve in the Red Cliffs Desert Reserve, most of which is now 
Red Cliffs NCA, with county and national leaders taking many 
approaches.
    Our written testimony provides background and information 
to support our position, and reinforces our opposition to 
current efforts to force a road that was never formally planned 
during the official reserve process. My oral testimony focuses 
on significant issues pertaining to the bill, but not all of 
our concerns.
    The highway is incompatible with protections of the 
threatened Mojave Desert tortoise and other protected species, 
and was clearly presented in the May 15, 2018 letter by the 
Desert Tortoise Council, which is the definitive desert 
tortoise organization containing biologists dedicated to the 
furtherance of the tortoise. I present their letter to be 
included in the record.
    The purpose of the reserve and NCA is to provide permanent 
habitat protection to the threatened tortoise. The reserve was 
a mitigation for the take, harm or death, of tortoises that 
opened up over 300,000 acres in Washington County for growth 
and economic development, as is made clear on the Red Cliffs 
Desert Reserve website information. The ESA specifically 
prohibits a take via habitat destruction, which a highway would 
certainly do. It is scientifically false that the road could 
enhance the habitat.
    Other transportation solutions exist that have not been 
seriously considered by our local government. With no 
independent review, we do not feel that leaders and planners 
have done the due diligence necessary to deal with 
infrastructure in our county.
    Proposed Zone 6, as mentioned by the Congressman, is not 
mitigation, and should not be presented as such. The addition 
of Zone 6 on 7 or 8 miles from the existing reserve NCA is a 
disconnected area containing a segment of tortoise habitat, and 
cannot be accepted as mitigation for several reasons.
    One, the best habitat of Zone 6 is not equal to the prime 
habitat in Zone 3.
    Two, Zone 6 habitat is already protected under ESA and 
NEPA. Zone 3 is, in itself, mitigation. So, Zone 6 would become 
mitigation for mitigation. Zone 6 cannot be a land bank. Damage 
to one protected habitat cannot be balanced by another 
protected habitat. Local governments should not get more 
control of the habitat.
    The county commission controls the Habitat Advisory 
Committee, exerts play of control on the ACP administration, 
and appoints a local HCAC representative, usually from 
government. The utility development protocol that works with 
the HCP allows utility development project decision making to 
rest with the commissioners if there are conflicts. Some 
development projects should not have been allowed during 
tortoise inactive seasons, but were.
    The county needs to renew the HCP and its take permit to 
harm or kill tortoises to allow further development. The bill 
circumvents the ESA and usurps U.S. Fish and Wildlife 
responsibilities. The bill does not encourage fiscal 
responsibility--$100 million dollars have been spent on buying 
land inside the reserve that was private land, public, or other 
land. BLM has traded land outside the reserve for the private 
land in the reserve. Fish and Wildlife grants have been spent 
buying land. The bill undermines these expenditures. Adding a 
$100 million road to these potentially wasted expenditures is 
not fiscally acceptable.
    Finally, but importantly, the bill sets a bad precedent, 
nationally. Nowhere is a local government allowed authority to 
decide take and mitigation requirements. Any local government 
could use this bill as precedent to remove protections for 
listed species. That may be the sponsor's purpose, but it is 
certainly not good for our NCA or others in this great country.
    Utah's effort to wrest control of public land is clearly 
evident. An open process resulting in the HCP and RPM is 
opposed to this bill that resulted from closed-door meetings--
--
    Mr. McClintock. Mr. Van Dam, I am afraid I am going to have 
to interrupt you there.
    Mr. Van Dam. Thank you.
    Mr. McClintock. The time has expired.
    Mr. Van Dam. I am sorry, sir.
    Mr. McClintock. It is quite all right. It happens all the 
time. But we do try to keep to the schedule. But your testimony 
in full will be in the record, and I am sure you will have the 
opportunity to elaborate on those remarks shortly.

    [The prepared statement of Mr. Van Dam follows:]
       Prepared Statement of Conserve Southwest Utah on H.R. 5597
    This testimony provides the historical and logical reasons H.R. 
5597 should not pass. It is presented in terms of a summary of the 
history, the proposed bill and our issues with it; and is then followed 
by the details providing the basis for our position.
                                summary

Introduction
    Conserve Southwest Utah (CSU) appreciates this opportunity to 
submit testimony to the Federal Lands Subcommittee of the House Natural 
Resources Committee on this matter that is very dear to the citizens of 
Washington County and, due to the precedent-setting nature of this 
bill, of great importance to American citizens.
    As a local grassroots conservation organization in Washington 
County we have over 10 years of detailed experience with the subject of 
this bill. We have regularly attended Habitat Conservation Advisory 
Committee meetings (the committee that oversees the Habitat 
Conservation Plan (HCP) for the Red Cliffs Desert Reserve, most of 
which is now Red Cliffs National Conservation Area--RCNCA) and public 
meetings held by county elected officials and the BLM. We have met 
face-to-face with local elected officials and organized public forums 
in attempts to reach understanding and resolution. We organized citizen 
participation in the development of the 2006 ``Vision Dixie'' long-
range county development concept, the 2009 Omnibus Public Lands 
Management Act (OPLMA), the 2016 Resource Management Plans (RMPs) for 
the two National Conservation Areas (NCAs), and testified in the 2016 
field hearing for the Federal Lands Subcommittee. Hundreds of us have 
spent thousands of volunteer hours achieving the protections that this 
bill would throw aside.
    We have watched this effort to enable a highway through critical 
habitat evolve over these many years. Our testimony will provide 
background information and bring the Subcommittee up to date on current 
efforts by Congressman Stewart and our county elected officials to 
force a road where one was never formerly planned and certainly never 
approved.
    Thank you for your consideration of our thoughts and concerns on 
the matter under review today. Additionally, thank you for your service 
to this Nation and its citizens. We look forward to a well-considered 
decision from this body.
Summary of H.R. 5597
    The following describes our understanding of the bill. The sections 
of the bill are referenced below in ``Issues with H.R. 5597.''

    -- Section 1 provides a short title for the bill.

    -- Section 2 provides definitions.

    -- Section 3 describes the HCP Amendment directed by the bill.

      -- 3a states that the Department of the Interior (DOI) must 
            approve an HCP amendment and renew the permit in accordance 
            with this and other applicable laws.

      -- 3b and c states that the county and the BLM will manage Zone 6 
            as they manage the other zones (to enhance the natural 
            values of such lands, including wildlife habitat).

      -- 3d states RMP amendment requirements, addressing the HCP, 
            recreation and easements.

      -- 3e and f defines ``mitigation credits,'' stating that Zone 6 
            can be used to mitigate damage in other zones, including 
            the highway, and to mitigate ``take'' (tortoise harm or 
            death) throughout the county.

      -- 3g states that the DOI must accept the amendment within a 
            year.

      -- 3h states there are no other effects to the HCP.

    -- Section 4 addresses RMP/NCA Adjustments, requiring the DOI to 
            amend RMPs to incorporate this act, with coordination and 
            cooperation of local governments.

    -- Section 5 addresses the RCNCA, stating the existing Rights-of-
            Way (ROW) will remain in tack, provides for the highway, 
            and disallows BLM from water rights.

    -- Section 6 addresses the BDWNCA, stating that ROWs are not to be 
            more restrictive than RCNCA, disallows the BLM from water 
            rights, and preserves grazing rights.

Summary of Our Position
    H.R. 5597 takes a tremendous leap backward for Washington County, 
Utah, by undermining the open, transparent citizen engagement that 
created the Red Cliffs Desert Reserve/National Conservation Area 
(Reserve/RCNCA) and the Beaver Dam Wash National Conservation Area 
(BDWNCA) many years ago. These sensitive habitats and scenic signature 
vistas of our area represent the best of the National Landscape 
Conservation System, the Endangered Species Act (ESA), and the National 
Environmental Policy Act (NEPA). The bill also takes a tremendous leap 
backward for the entire country by undermining the ESA and NEPA by 
basically giving control of listed species to a local government. To 
grant the provisions defined in H.R. 5597 would not only do irreparable 
damage to our local public lands but also undermine the foundation of 
these basic environmental protections across the entire country. There 
are appropriate processes in place to fairly address the county's 
issues, using scientific and proper alternatives analyses. The county 
has refused.
Background
    Washington County and the city of St. George in the far southwest 
corner of Utah is one of the fastest growing areas in the country. Over 
half the land in the county is federally-managed, including its 
signature landscape, a large section of rugged, red-rock canyon, 
plateau and mesa area immediately bordering the northern urban area. In 
the 1980s, after many years of study, the Mojave Desert tortoise was 
listed as ``threatened'' under the Endangered Species Act. A Habitat 
Conservation Plan (HCP) was adopted in 1990 to allow growth and 
economic development of 300,000 acres of habitat while protecting 
62,000 acres of land, 45,000 of which is BLM-managed. The HCP, while 
offering permanent protection, requires periodic renewal every 20 years 
(it has now lapsed). A layer of permanent protection was added by the 
creation of the Red Cliffs National Conservation Area in the 2009 
OPLMA. Public support for these protections has been very high at every 
step.
    These protections presented a challenge not unlike many cities 
face: an area bordering an urban center that cannot be developed. 
Washington County's local governments welcomed the HCP elements that 
enabled growth and economic development to continue but have chaffed at 
those elements restricting development on the protected federally-
managed public lands. Utah and Washington County have a long history of 
resisting Federal influence, especially in public lands. The stage has 
been set for this end-run around public support for protections and 
around bi-partisan laws enacted to protect these lands.
    Local governments agreed to the HCP because it was more acceptable 
than consulting individually with the U.S. Fish and Wildlife Service 
(USFWS) on every development proposal in tortoise habitat. Due to this 
agreement, development and subsequent loss of desert tortoise habitat 
in most of Washington County was permitted to continue because the Red 
Cliffs Desert Reserve and the Red Cliffs National Conservation Area 
were permanently set aside and protected. The HCP process under the 
Endangered Species Act has generally worked well in Washington County 
up to this point and provides a win-win scenario, enabling growth and 
economic development and habitat protection. To build a highway through 
the designated critical protected area (Zone 3) now will encroach on 
the already limited desert tortoise habitat and violate the spirit and 
letter of the law agreed upon years ago. (See ``Maps''.)
    H.R. 5597 is the latest installment of a series of actions by 
Washington County to force a highway through protected habitat. Their 
latest twist is to propose an addition to the HCP (Zone 6, an 
unconnected parcel of mostly BLM- and SITLA-managed land) as mitigation 
for damage done by the highway to tortoises and their habitat in the 
prime Zone 3 area of the Reserve/NCA.

    The proposal is presented by the county as a win-win-win: habitat 
and the tortoise win because the highway will do no harm and an 
expanded habitat is recognized; the people win because gridlock is 
eliminated, and the economy will not suffer. This is an erroneous 
characterization: it is actually a lose-lose-lose:

    <bullet> Habitat will be significantly damaged (as evidenced by 
            scientific consensus).

    <bullet> Zone 6, even though it is already protected by the ESA, 
            will decline (only superficial short-term protections are 
            proposed and the Western Corridor highway will inflict the 
            same damage as the proposed Northern Corridor highway).

    <bullet> The Northern Corridor highway will not solve our traffic 
            issues.

    <bullet> The action to reverse the environmental protections will 
            damage our economy rather than help it.

    The public lands in Washington County contribute to our quality of 
life, providing areas for world class outdoor recreation, protecting 
water quality and clean air as well as providing wildlife habitat. CSU 
works to ensure the irreplaceable cultural, scenic, ecological and 
scientific values are protected and properly conserved. We hope that 
county, state and national leaders will work with us, too.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Red Cliffs Desert Reserve/National Conservation Area
    Looking at the area where the proposed Northern Corridor Highway 
would be built, through the prime habitat of the Mojave Desert 
tortoise, taken from the existing highway through the habitat, the Red 
Cliffs Parkway.

    See ``The History'' for more details.

Issues with H.R. 5597
    This section describes our major issues with the bill. A reference 
is provided for each issue to the pertinent section of the bill 
summarized in ``Summary of H.R. 5597.''
Highway Incompatibility With Protection
    The purpose of the Reserve and NCA is to provide permanent habitat 
protection for the threatened Mohave Desert tortoise. The Reserve was a 
mitigation for the ``take'' (harm or death) of tortoises in habitat 
opened for growth and economic development. A highway must be 
prohibited as it would be counter to the purpose of the HCP and NCA. 
The ESA specifically prohibits a ``take'' via habitat destruction, and 
the highway would certainly do that. The county has argued (Washington 
Parkway Study) that a highway will not harm and may indeed enhance the 
habitat. This position is scientifically false (See Desert Tortoise 
Council Report) and has no support in the scientific community. The 
county will argue they were given assurances the highway would be 
allowed. This position is also false, as evidenced by meeting minutes 
of the county's Habitat Conservation Advisory Committee (HCAC).

    Ref: This issue pertains to the bill's section 3a (which requires 
applicable laws to be followed, which state, in essence, that a highway 
is not allowed), b and c (which state that the NCA is to be managed to 
enhance the habitat, which a highway does not do), and section 5 (which 
directs the highway to be allowed).

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Best map available to us, showing the 6 zones and the proposed 
highway (black line in middle).

Highway Not Needed
    (See ``Transportation Studies and Modeling'' for more details)

    There is no need for the highway--other solutions exist that have 
for some reason not been considered by our local governments, such as 
mass transit, zoning to avoid choke points, revisions to existing 
roads, additional interstate connections. The county has fixated on 
what they erroneously believe is the one and only solution. No 
independent or public review has been allowed.

    Ref: This issue pertains to the underlaying presumption of the bill 
that the highway is needed.
Zone 6 Not Mitigation
    The addition of Zone 6, a discontinuous area containing a segment 
of tortoise habitat, cannot be accepted as mitigation for a highway 
through the Reserve's original prime Zone 3 habitat for several 
reasons:

  (a)  By law a highway cannot be mitigated.

  (b)  Some of proposed Zone 6 is not habitat, and even the best 
            habitat in Zone 6 is not comparable for mitigation of prime 
            habitat in Zone 3 where the proposed highway would be 
            located.

  (c)  The proposed Zone 6 habitat area will be in danger from the 
            planned Western Corridor highway.

  (d)  The proposed Zone 6 habitat area is already protected by the ESA 
            and NEPA.

  (e)  The existing Reserve/NCA, including Zone 3, is itself a 
            mitigation for the habitat destruction throughout 
            Washington County. That leaves the proposed Zone 6 ``a 
            mitigation for a mitigation,'' which should not be allowed.

  (f)  It is also proposed that Zone 6 be used as a ``land bank'' for 
            further damage to the current Reserve/NCA habitat and other 
            listed species throughout the county. This concept is 
            invalid: damage to one protected habitat cannot be balanced 
            by another protected habitat.

    Ref: This issue pertains to bill's section 3e, which declares how 
Zone 6 is to be used for mitigation of damage in Zone 3 and elsewhere 
in the county.
Local Government Usurping Federal Authority
    There is still some property to develop in tortoise habitat within 
the county, and since the prior HCP is expired, the county needs to 
renew it and its ``take'' permit (to harm or kill tortoises). This 
bill, and the HCP amendment it directs the BLM to approve, allows the 
county to usurp the U.S. Fish and Wildlife Service (USFWS) 
responsibilities and issue the ``TAKE PERMIT RENEWAL'' for 25 years. 
The Endangered Species Act (ESA) prohibits the ``take'' of listed 
species through direct harm or habitat destruction, which this highway 
certainly does. However, the ESA allows a ``take'' if there is an 
approved HCP. Therefore, the county needs to renew the HCP and the take 
permit to allow continued development, and this bill is their vehicle 
to circumvent the ESA to get this unneeded highway at the same time, in 
exchange for the Zone 6 habitat that is already protected and not a 
viable mitigation.

    Ref: This issue pertains to bill's section 4, which in ambiguous 
language puts the county in control of habitat impact decisions over 
the judgment of the BLM and USFWS, allowing existing laws (OPLMA, ESA, 
NEPA) to be ignored.
Fiscal Irresponsibility
    $60-100 million have been spent on buying land inside the reserve, 
with more expense pending. For 20 years BLM has traded their land 
outside the reserve for the private land inside the reserve. Fish and 
Wildlife grants for millions of dollars have been spent on buying land 
inside the HCP to preserve tortoise habitat. H.R. 5597 undermines the 
basic purpose of these expenditures.

    Ref: This issue pertains to the assumption that any bill should 
support fiscally-responsible actions.
Setting a Bad National Precedent
    Even more significant than the localized issues above are the 
nation-wide, multi-state issues of completely undermining the basic 
concepts and processes of the ESA and NEPA. Nowhere in the country is a 
local government allowed this authority to decide ``take'' and 
mitigation requirements. Any local government could use this bill as a 
precedent to remove protections for threatened or endangered species.

    Ref: This issue pertains to the bill's sections 3, 4, 5 and 6, 
which when implemented for Washington County, Utah, would open the same 
considerations for any county in any state.
Redundant/Confusing/Misleading Elements in the Bill
    There are many detailed issues with the bill. A number of them stem 
for misinterpretations county officials had with the Resource 
Management Plan (RMP). These misinterpretations were cleared up in a 
number of meetings with the BLM and it was agreed that the RMP was 
correct, yet these issues are again brought up in this bill, as if they 
had not been resolved. They should be removed from the bill.
    The title of the bill is misleading, implying that the primary 
purpose is to expand and enhance the habitat for threatened or 
endangered species in Washington County. Its real purpose is to direct 
a highway to be built through prime sensitive habitat for a listed 
species, and to upset Federal control of environmental protections.

    Ref: This issue pertains to the bill's sections 1, 5 and 6, which 
each have elements that are redundant to elements already in the 
approved Resource Management Plans (RMPs) for the NCAs or are 
redundant/confusing.
Lack of Public Engagement
    (See ``The History,'' especially ``Public Process'' below for 
details)

    The listing of the Mojave Desert tortoise and the creation of the 
HCP, the OPLMA, the NCAs and the RMPs all had many opportunities for 
public engagement and input which had significant impact on the end 
products. By contrast, H.R. 5597 had almost no opportunity for public 
engagement or input. It was developed in private and in a hurry. Our 
local elected officials are the first to complain about Federal 
Government actions that do not allow local engagement, and yet they 
foster that very action. Perhaps they think local engagement only 
applies to those with elected status and not their constituencies. The 
development of this bill is a very poor example of an open and 
transparent process.

    Ref: This issue pertains to the assumption that any bill should 
have adequate public engagement opportunities in an open and 
transparent manner.
                              the details

The History
    The historical background in Washington County of the Mojave Desert 
tortoise, the protections afforded it and the public engagement 
processes used to grant the protections are presented below.
Washington County: Growth and the Tortoise
    Washington County, in the southwest corner of Utah, was a quiet 
area of slow growth until the advent of affordable air conditioning for 
homes and cars and until I-15 was completed between Salt Lake City and 
Los Angeles. This made the area tolerable in the heat of summer and 
accessible year around. Thanks to its climate and its environment based 
in the scenic vistas of protected, federally-managed public lands, it 
was discovered as a tourist and outdoor recreation mecca. There was not 
much need for transportation planning, and ``ring roads.'' And it 
started to grow. The Mojave Desert tortoise was long known to be in 
danger in the early 1980s, but it was not an issue until the growth 
started. When it was listed as a threatened species, with plenty of 
warning and communication, the growth was just starting to build, and 
the listing threatened the growth.
HCP and Reserve Purpose
    In 1990, the U.S. Fish and Wildlife Service listed the Mojave 
Desert tortoise as threatened under the Endangered Species Act. This 
would have impeded development on private and state lands in the 
county.
    In 1995, local officials signed an agreement to establish a Habitat 
Conservation Plan (HCP) to protect habitat of the tortoise by 
establishing a Reserve, named the Red Cliffs Desert Reserve. The U.S. 
Fish and Wildlife Service issued a Section 10 incidental take permit 
which allowed for the loss of approximately 1,100 desert tortoises and 
12,000 acres of desert tortoise habitat during land development over 
the next 20 years. In trade, 300,000 acres of private and state land 
were released for growth and economic development.
    HCPs are developed to reduce the regulatory burden on private and 
state landowners while addressing the habitat needs of listed species. 
The HCP gave economic certainty to be able to develop those lands 
outside the Reserve. Washington County and this Reserve, have some of 
the highest density of endangered, threatened and special status 
species in Utah. The only road improvement mentioned in the HCP was to 
improve the Red Hills Parkway, which was done. New roads were not 
allowed.
    1993 Steering Committee meeting minutes make no mention of a needed 
highway corridor. Habitat Conservation Advisory Committee meeting 
minutes from 1996-1998 when the Reserve was first being established 
make only one cursory reference to a road through the Reserve with no 
details. All other references pertain to existing roads.
Washington County Growth & Conservation Act 2006
    In 2006 Senator Robert Bennett and Congressman Jim Matheson 
together with Washington County commissioners created the Washington 
County Growth & Conservation Act of 2006, which dealt mainly with the 
designation of wilderness areas, but also contained a provision for a 
Northern Corridor. This was the bill that spawned the creation of 
Citizens for Dixie's Future (now CSU). Citizen opposition to the road 
and land transfer was strong and resulted in a public process named 
Vision Dixie that involved nearly 3,000 county citizens, an effort we 
believe the county thought would bolster their position. It did not. 
Although the process revealed strong support for a good transportation 
network it did not clearly support a road through the Reserve. Habitat 
Conservation Advisory Committee (HCAC) meeting minutes in 2006 when the 
Washington County Growth & Conservation Act was being developed reveal 
the road was clearly rejected by a majority of committee members.
    Washington County citizens have repeatedly voiced the opinion that 
this amazing area deserves protection by rejecting the 2006 Lands Bill 
and supporting our local Vision Dixie process in 2007 that preferred 
protection of sensitive and scenic public lands such as those now 
enacted as NCAs. Vision Dixie's Principle 3 states, ``Guard our 
`Signature' Scenic Landscapes.''
Omnibus Public Lands Bill 2009
    The Bennett/Matheson bill languished until 2008 when it was revived 
for inclusion in an omnibus bill. In Subtitle O in the Omnibus Public 
Lands Management Act (OPLMA) of 2009 there is a provision for BLM to do 
a comprehensive Travel and Transportation Management Plan, in 
accordance with the Federal Land Policy and Management Act (FLPMA); the 
Secretary of Interior in consultation with appropriate Federal 
agencies, state, tribal, and local government entities (including the 
County and St George, Utah), and the public, identify one or more 
alternatives for a northern transportation route in the County. The 
language in that bill does not, by any reasonable interpretation, 
require the Northern Corridor to be built: it required the 
identification of options to be considered for a northern 
transportation route in the County, in consultation with agencies, 
local entities, the state, tribes, and the public in development of the 
BLM's Travel Management Plan. These routes were to then be reviewed in 
accordance with Federal environmental law for suitability. The Lands 
Bill does not require BLM to designate a northern transportation route 
in the Transportation Management Plan.
    Not long before the 2008 version of the Washington County Land Bill 
was finalized as part of the 2009 OPLMA, Citizens for Dixie's Future 
(now Conserve Southwest Utah) was contacted by Representative Jim 
Matheson's aide to discuss support for the latest version, and was 
assured the highway was not included. Bill sponsor Senator Robert 
Bennett's April 22, 2008 on S. 2834 hearing comment makes it clear: 
``Congressman Matheson and I have made significant changes to the 
previous proposal. We have permanently protected large amounts of 
biologically significant public land in Washington County, including 
additional wilderness and a new national conservation area. We have 
removed the designations for the Lake Powell Pipeline Corridor and the 
Northern Corridor that bisected the Red Cliffs Desert Reserve.''
Red Cliffs NCA Creation
    In 2009, the Red Cliffs National Conservation Area (NCA) was 
established by U.S. Congress (Public Law 111-11), adding a layer of 
permanent protection to the Red Cliffs Desert Reserve Mojave Desert 
tortoise habitat. In 2015, the draft Resource Management Plan (RMP), 
which further studied and rejected a highway through the NCA, was 
released for public comment, causing much distress to county leaders. 
BLM was following laws set up by Congress to protect this habitat.
    44,725 acres within the 61,000-acre Red Cliffs Desert Reserve were 
designated as NCA. Here is what is clearly stated in Section 1974 of 
the OPLMA concerning the NCA and its purpose. The purpose of the NCA is 
``to conserve, protect, and enhance for the benefit and enjoyment of 
present and future generations the ecological, scenic, wildlife, 
recreational, cultural, historical, natural, educational, and 
scientific resources of the National Conservation Area; and to protect 
each species that is located in the NCA and listed as a threatened or 
endangered species on the list of threatened species or the list of 
endangered species published under section 4(c)(1) of the ESP of 
1973.'' Once the NCA was created, work began on the Resource Management 
Plan and the Travel Management Plan with this ``purpose'' as the 
driving force for the BLM's decision making.
County Challenge
    Our current local elected representatives today want to rescind the 
county's past agreements, which protected the publicly-managed habitat 
in the Reserve in exchange for ease of development of 300,000 acres of 
habitat in privately and state-held lands. This agreement included 
disallowing a highway through the protected lands. Now that those lands 
are mostly developed, our representatives seem to think reneging on the 
agreement is an honorable course of action, so they have encouraged our 
Federal elected officials to undermine the prior Federal laws to allow 
a highway by proposing this new legislation in Congress.
    Several efforts have been made to try and force this road in the 
past. In 2013 an application for a right-of-way (ROW) that would have 
authorized construction, operation and maintenance of the four-lane 
highway through public land was made by the county. The case was set 
aside and remanded to BLM for further action.
    Senator Orrin Hatch introduced a bill in the Senate May 2017, 
directing BLM to scrap its excellent RMP that took 4 years of study and 
offered many opportunities for public comment. This is because the RMP 
does not allow a four-lane highway through the reserve. This bill has 
not gone to committee and sits in Congress.
    Representative Chris Stewart's 2017 bill H.R. 2423 (Washington 
County, Utah, Public Lands Management Implementation Act. To implement 
certain measures relating to management of Washington County, Utah 
required by Public Law 111-11) claimed the highway was in the Public 
Law 111-11. That is untrue and the title of bill is very deceptive. It 
was not in the 2009 bill and in fact was deleted from the bill by 
Utah's Senator Bennett in 2008 as shown in April 2008 congressional 
testimony mentioned above. Rep. Stewart's bill passed a house 
committee, but never went to Floor vote of the Full House and it never 
allowed public comment before it was introduced.
    Now the county has again enlisted the help of Congressman Stewart 
to run H.R. 5597 that adds a section of SITLA and BLM land known as 
Zone 6 as theoretical mitigation for the highway in Zone 3.
HCP Renewal
    In 2016 the 20-year HCP came up for renewal. At this point, the 
county is operating under the old HCP that has been extended by the 
USFWS while the county works in ``good faith'' to renew the permit. The 
Washington County Commission needs to renew the HCP because there are 
still private and state lands that could be developed in county. 
However, they also want to amend the HCP renewal to allow the highway 
in legislatively protected prime habitat--Zone 3--in exchange for less-
desirable habitat in the proposed Zone 6 that also has a proposed major 
highway on its western border. This concept is the basis for Rep. 
Stewart's new bill, Desert Tortoise Habitat Conservation Expansion Act.
    The county commissioners asked all the cities to pass a resolution 
to support the bill. But legislative language of the bill had not at 
that time been disclosed to the public and they told CSU the bill's 
text would be disclosed after introduction in Congress. In essence, 
Washington County's town and city leaders were being asked, it 
appeared, to support that about which they had few if any details.
    Many questions remain. What is the proposed budget for managing 
Zone 6, who would pay for this management, and would there be a long-
term funding commitment sufficient to provide the required high level 
of public education, resource monitoring, and law enforcement to ensure 
that the Zone 6 mitigation objectives are actually achieved.
Public Process
    Until the last couple of years, the Reserve/NCA RMP process seemed 
very open and transparent. The HCP and Reserve creation process was 
very open and public and had large engagement in the community. The HCP 
steering committee had members from Federal and local government, U.S. 
Fish and Wildlife Service, environmental organizations, mayors, 
developers, and more. The meetings were open to the public and members 
of the audience were allowed to make public comments. However, in spite 
of the Northern Corridor being reputed to have been such an important 
matter and in plans for decades, early meetings (January and February 
1993) made no mention of this critical infrastructure so necessary in 
the minds of current leaders for Washington County's future. However, 
Ron Thompson, Washington County's water manager, did mention in the 
first Steering Committee meeting that 1993 had been a banner year for 
growth and developers were losing money due to the hold up in HCP 
planning. So, it was clear the area was growing rapidly and yet no 
mention of the road.
    The Reserve was established and all seemed to be going well. Then 
during the early days of the Washington County Growth & Conservation 
Act of 2006, which gave rise to the very Vision Dixie process mentioned 
earlier (see ``Washington County Growth & Conservation Act 2006''). 
After that, with modification of the 2006 bill and passage in 2009 
established the NCAs, providing direction to the BLM for their Resource 
Management Plan, the public felt comfortable that the road issue had 
been somewhat settled.
    The RMP public process began in June 2010 with open houses for 
public involvement in the process. 269 members of the public and 
representatives from Federal agencies, as well as state and local 
governments attended. In 2015, the public was invited to comment on the 
draft RMP which was finalized by the BLM's Record of Decision (ROD) in 
December 2016, which has led us to this challenge by Congressman 
Stewart and county leaders to overturn the ROD regarding the road and 
some other matters.
    In 1993, meeting minutes show that the HCP Steering Committee 
became the Habitat Conservation Advisory Committee (HCAC). The HCAC has 
held open meetings during which the public has been allowed to make 
comment and share their thoughts and concerns. In early 2015 the issue 
of HCP renewal came up since the 20-year permit would expire in 2016. 
From then until 2017 the HCAC conducted open work meetings focused on 
the renewal process.
    In 2017 things changed. The Washington County commissioners decided 
to take the renewal process under their wing and started holding closed 
meetings to discuss the Northern Corridor issue. The result of those 
meetings was their plan to expand the Reserve by adding the proposed 
Zone 6 to be used as mitigation for the building of the Northern 
Corridor, resulting in the bill before us today. This process has been 
the antithesis of the previous open and transparent efforts to engage 
the public and account for their input.
    In March of this year, the county presented its idea to the 
citizens of Washington County and asked local city and town leaders to 
support the county's efforts to expand the Reserve and build the 
highway. The county's meeting was well attended but that meeting, and a 
St. George meeting, revealed much opposition to the road and pitted 
recreationists against conservationists. By adding Zone 6, a heavily 
recreated area, to the H.R. 5597 bill, with the threat that if not 
added recreational activities might be stopped due to development, 
leaders effectively set up a red herring. Zone 6 land had not been 
developed for many years, apparently due to soil and geological issues, 
but it was enough to scare the recreational community into thinking 
they needed to support the Northern Corridor to get their Zone 6.
    The 2017 county effort that led to this bill did not provide the 
public process citizens needed on this important matter. CSU has asked 
Federal and local leaders to please support the prior agreements 
understood by constituents to have been made in good faith. We've asked 
they support an open and transparent decision-making process, 
environmental protection as our brand, economic development with, not 
instead of, environmental protections, a transportation vision for the 
future rather than an unneeded highway. All of these elements support a 
well-balanced quality of life for Washington County's constituents.
Transportation Studies and Modeling
    Studies do not support need for the road. In 2007, UDOT's study of 
ideas for a Northern Corridor dealt with the county's preferred route 
(Red Hills Parkway to I-15 at MP 13) in a chapter titled: 
``Alternatives Considered but Eliminated from Further Consideration.'' 
There it was stated that the Northern Corridor Alternative would not 
meet the objective of minimizing impacts to the reserve. The city of 
St. George, UDOT, and FHWA determined that the anticipated 
implementation challenges and potential environmental effects, as 
previously described, would be substantial and thereby eliminated the 
Northern Corridor Alternative from further consideration. Of course, 
that was before this new idea of adding a Zone 6 to provide mitigation 
for the highway acres used, but the addition of Zone 6 does not 
eliminate the environmental issues considered in the transportation 
report.
    The 2011 Washington Parkway Cost/Benefit Study and the 2015-2040 
Regional Transportation Plan revealed the road would not relieve 
traffic congestion on other busy roads. As noted, the road had been 
eliminated from further consideration in UDOT's 2007 study. Options to 
deal with ever-increasing traffic in Washington County have been 
suggested but ignored. HCAC 2006 meeting minutes include a suggestion 
by committee members to consider a further-north, outside the Reserve/
NCA option, which local elected officials have rejected.
    There is already a highway, Red Hills Parkway, which goes across 
the NCA and was included in the HCP. There are alternatives for a 
highway that would by-pass the NCA that have not been properly 
considered. The data used to back up the model used to determine the 
need for this highway has not been opened to public scrutiny although 
CSU has asked for that data.
    In a 2012 letter from our organization to the Utah Department of 
Transportation regarding ``Comments on the Proposed UDOT Feasibility 
Study for a Northern Corridor Parkway Through the Red Cliffs Desert 
Reserve'' CSU stated that if UDOT proceeds to study the feasibility of 
a Northern Corridor route, we suggested that it should look at more 
than just traffic needs and projections and take into consideration the 
reasons why in 2006 seven members of the Habitat Conservation Advisory 
Committee voted unanimously against allowing the Northern Corridor.
    The reason for that 2006 highway rejection by the HCAC--a road 
bisecting Zone 3 would cause irreparable harm--is still reasonable 
today as we consider H.R. 5597's suggested changes to mitigate for the 
highway's acceptance.
    Washington County officials assert that the UDOT study, 2012 
Washington Parkway Study, done by UDOT's biologist showed that culverts 
could be installed to ``actually help'' the tortoise population. It has 
not been established that culverts would help. If the road is built, 
there will be no ``undoing'' it. In fact, the Desert Tortoise Council 
has challenged UDOT's biological study with their own biology. So, it's 
one biologist and his study, for which he was paid by the state and 
could provide questionable findings given that it's not an 
``independent'' study, against a group whose mission is to support the 
well-being of the Mojave Desert tortoise.
    The proposed Northern Corridor highway's purpose is to alleviate 
traffic around two I-15 exits by taking traffic around them, through 
the Reserve, connecting the next exit north to a new intersection on 
the existing highway that bisects the Reserve (as was approved by the 
original HCP), basically moving the congestion point. It is very 
unclear if this proposal has any real utility. There has been no known 
technical or public review of the traffic model indicating this change 
makes any significant difference. It is likely that the model merely 
extrapolated existing traffic on existing roads, with no other 
improvements made, and no consideration of significant mass transit or 
the retirement/tourist demographic. Our elected officials (our county 
commissioners, city councils and Congressman Stewart) have described 
this road as ``essential'' to Washington County, yet they have not 
supplied any definition of that label or evidence that it is true. It 
is doubtful that they know what alternatives to bisecting the protected 
habitat could address the same traffic concerns. Dictating this highway 
as the solution is not justified.

    There is a need for alternative ways to carry the ever-increasing 
traffic in Washington County. A more robust transit system seems to be 
on the horizon. CSU has made several suggestions that have not been 
considered:

    <bullet> Run the Travel Demand Models with the Northern Corridor 
            excluded from the assumptions to study other singular or 
            combinational options to meet our transportation needs.

    <bullet> Include more robust multimodal transportation projections 
            in the modeling (expanded transit, Active Transportation, 
            circulator trolleys, vanpools, future light rail).

    <bullet> Modify General Plans from the political subdivisions to 
            project desired future land use and destinations rather 
            than relying on current plans that are constantly changing 
            with rezoning approvals, and often need updating to reflect 
            the rapid pace of development in the County.

    <bullet> Complete the Southern Parkway as a through-traffic bypass 
            route.

    <bullet> Remove or drastically modify I-15 through Washington City 
            and downtown St. George in order to reconnect as many 
            surface streets as possible in the congested core of the 
            metro area.

    <bullet> Give incentives to industrial and distribution businesses 
            in the old industrial park by the Middleton Tunnel to move 
            to the Fort Pierce Industrial Park to eliminate much of the 
            heavy truck traffic using Exit 8-St George Boulevard and 
            Exit 10-Green Springs.

    <bullet> Ask Intermountain Health Care to give DRMC employees 
            transit passes and start van pools for shift workers to 
            reduce automobile traffic. (DSU has led the way by 
            partnering with SunTran transit system on free transit 
            passes for students with a valid DSU student ID.)

                               references

H.R. 5597 and proposed HCP amendment:

    https://www.govtrack.us/congress/bills/115/hr5597/text

    http://conserveswu.org/wp-content/uploads/HCP-Amendment-3-22-18.pdf

Prior hearing testimony:

    http://conserveswu.org/wp-content/uploads/Van-Dam-Paul-public-
hearing-testimony-Jan-22-2016.pdf

Desert Tortoise Council findings--highway impact on tortoise habitat:

    http://conserveswu.org/wp-content/uploads/Desert-Council-Stewart-
letter-May-16-2018.pdf
                                  maps

Proposed Northern Corridor highway through existing Reserve Zone 3:

    http://conserveswu.org/wp-content/uploads/Northern-Corridor-map-
2018.pdf

Proposed Western Corridor highway through proposed Reserve Zone 6:

    http://conserveswu.org/wp-content/uploads/Western-proposed-highway-
map.pdf

Proposed Zone 6:

    http://conserveswu.org/wp-content/uploads/ZONE-6.pdf

Various options for Northern Corridor (blue is the proposed):

    http://conserveswu.org/wp-content/uploads/HCP-Northern-Corridor-
map-BLM.pdf

                                 ______
                                 

    Mr. McClintock. The Chair will now defer to Mr. Stewart to 
make the introduction of our next witness.
    Mr. Stewart. Once again, Chairman, thank you. I have 
introduced Commissioner Cox already. Once again, he is just a 
great leader in the community, and has enormous respect.
    So, Commissioner Cox.

    STATEMENT OF DEAN COX, COMMISSIONER, WASHINGTON COUNTY 
                  COMMISSION, ST. GEORGE, UTAH

    Mr. Cox. Thank you, Chairman Bishop, Chairman McClintock, 
and Ranking Member Hanabusa, for the opportunity to testify in 
support of H.R. 5597. I especially want to thank Representative 
Chris Stewart for his work on this balanced legislation, which 
is vital to the future of the desert tortoise and Washington 
County, Utah. I also thank the city councils, recreation 
enthusiasts, and conservation organizations that supported this 
effort.
    I am proud of this bill and the process we followed to 
develop balanced solutions. H.R. 5597 expands and extends the 
Desert Tortoise Habitat Conservation Plan in Washington County 
by adding 6,835 acres of new, high-quality tortoise habitat 
called the Red Cliffs Desert Reserve Zone 6.
    For the past 22 years, Washington County has managed the 
HCP. We are not new at species recovery, and we are darn good 
at it. Our HCP boasts the highest densities of tortoise 
throughout its range by a significant margin. We have also 
taken far fewer than our permit authorized. The tortoises we 
did remove from developing areas were successfully relocated to 
the reserve, where they are now thriving. And many are 
reproducing.
    While we cannot control wildfire or drought, our HCP has 
been successful and has held out as a model in the U.S. Fish 
and Wildlife Service's HCP handbook. The original HCP agreement 
expired in 2016. We have continued to manage the HCP on a 
temporary extension. For over a year, we have met with 
representatives of Federal and state agencies and other 
stakeholders, including conservation groups, recreation 
enthusiasts, and others.
    One of our goals was to negotiate an extension that would 
be good for the tortoise and help the county and our cities 
deal with the rapid growth we are experiencing. According to 
data released by the U.S. Census Bureau earlier this year, the 
St. George Metro Area is the fastest-growing city in the United 
States. This growth has funded our HCP. Our development fees 
are \2/10\ of 1 percent of building costs, at $250 an acre. The 
county has raised approximately $15 million, which is more than 
$6 million than what was originally budgeted and committed when 
the HCP was signed in 1996.
    For more than 20 years, since before the creation of the 
reserve, the county has had a transportation route on our long-
term plan that we call the Northern Corridor. As we worked on 
the HCP renewal, it became clear that we needed to tackle the 
issues of utility access and transportation. We consulted with 
Federal and state desert tortoise biologists and traffic 
engineers to find the optimum combination of traffic flow and 
tortoise movement as we sought a new alignment for the roadway.
    The new 4-mile-long route proposed in the bill is located 
as close to the NCA's southern boundary as is feasible. The 
300-foot-wide corridor is 4.3 miles long, covering only 147 
acres of the Red Cliffs Reserve. I want to emphasize, however, 
that the roadway crosses only 1.9 miles of the National 
Conservation Area and impacts only 65 acres.
    H.R. 5597 does not circumvent the procedures required by 
the Endangered Species Act and its accompanying regulations. 
That means the combination of building this new road and adding 
Zone 6 must not be detrimental to the recovery of the tortoise. 
H.R. 5597 provides more than ample mitigation for the full 
implementation of Public Law 111-11, as mitigation.
    For these impacts on the reserve and the NCA, the county is 
prepared to add an additional 6,835 acres of prime tortoise 
habitat, most of which is owned by the State of Utah School and 
Institutional Trust Lands. Not only are the state lands in that 
area developable, but they are also highly recreated. Rather 
than allowing the area to be developed and lose the recreation 
and tortoise habitat, we are proposing to add area to the 
reserve, manage recreation, and use it to mitigate for the 
possible impacts from utility and transportation development.
    Thank you for giving us a chance to speak to you.

    [The prepared statement of Mr. Cox follows:]
      Prepared Statement of Dean Cox, Washington County Commission
                         Statement on H.R. 5597
    Thank you, Chairman Bishop, Chairman McClintock, and Ranking Member 
Hanabusa for the opportunity to testify in support of H.R. 5597, the 
Desert Tortoise Habitat Conservation Plan Expansion Act. I especially 
want to thank Representative Chris Stewart for his work on this 
balanced legislation which is vital to the future of the desert 
tortoise and of Washington County, Utah. I also want to thank all of 
the City Councils, recreation enthusiasts and conservation organization 
that supported this effort which were referenced by Rep. Stewart.
    I am proud of this bill and the process we followed to develop 
balanced solutions to help expand the habitat for the threatened Mojave 
desert tortoise while planning for the welfare of our citizens. H.R. 
5597 expands and extends the Desert Tortoise Habitat Conservation Plan 
in Washington County by adding 6,835 acres of new high-quality tortoise 
habitat called Red Cliffs Desert Reserve--Zone 6 (Zone 6). In 1996, the 
County entered into an agreement with the U.S. Fish and Wildlife 
Service, the Bureau of Land Management, the Utah Department of Wildlife 
Resources, and city partners to create a habitat conservation plan, or 
HCP, for the Mojave desert tortoise. For the past 22 years, Washington 
County has been managing the HCP, with the help of state and Federal 
partners, for the recovery of the Mojave desert tortoise. We aren't new 
at species recovery. We are good at it. Our HCP boasts the highest 
densities of tortoise throughout its range by a significant margin. We 
have also ``taken'' far less tortoises than our permit authorized. The 
tortoises we did remove from developing areas were successfully 
relocated to the Reserve where they are thriving, and many are 
reproducing. While we cannot control wildfire or drought, our HCP has 
been successful and is held out as a model in the U.S. Fish and 
Wildlife Service's HCP Handbook.
    The Red Cliffs Desert Reserve that we created as part of the HCP 
has become a popular recreation spot, a valuable area of open space, 
and a real asset for educating the public about the tortoise. The 
incidental take permit that is also part of the HCP agreement has 
allowed continued development of private property in the county through 
a process where developers work with the county to clear and protect 
tortoises. The original HCP agreement expired in 2016 and we have 
continued to manage the HCP on a temporary extension subject to 
negotiations of a long-term extension of the HCP.
    For over a year, we have met with representatives of the Bureau of 
Land Management, U.S. Fish and Wildlife Service, Utah Division of 
Wildlife Services, the Utah State School and Institutional Trust Lands 
Administration (SITLA), the Dixie Metropolitan Planning Organization 
(MPO) and other stakeholders including conservation groups and 
recreation enthusiasts. One of our goals was to negotiate an extension 
that would be good for the tortoise and help the County and our cities 
deal with the rapid growth we are experiencing. According to data 
released by the U.S. Census Bureau earlier this year, the St. George 
metro area is the fastest-growing city in the United States. There were 
an estimated 165,662 people in 2017 in the designated metro area, which 
includes most of Washington County, up 4 percent from 2016. This brings 
many challenges that include managing transportation alternatives, 
including increased use of transit, providing for utilities and land 
use decisions.
    This growth has funded our HCP. Our development fees are .2 percent 
of building costs and $250 per acre. The County has raised 
approximately $15 million which is over $6 million more than originally 
expected and committed to by the 1996 HCP.
    For more than 20 years, since before the creation of the Reserve, 
the County has had a transportation route on our long-term plan that 
would move traffic from the east to west in the densely populated part 
of the county. Just like with the utilities, the routes are limited by 
out stunning geography.
    We call the future transportation route the Northern Corridor. As 
the population grows, the city surface streets that allow east/west 
transport will be inadequate to handle the demand. We don't want cars 
bottlenecking and idling on our city streets. Our traffic experts have 
been saying for decades that for a Northern Corridor route to carry 
enough east/west traffic to help ease the congestion, it will have to 
pass through the Reserve.
    As we worked on the HCP renewal, it became clear that we needed to 
tackle the issues of utility access and transportation. A small portion 
of the Northern Corridor route must cross the Red Cliffs National 
Conservation Area (NCA). We have consulted with Federal and state 
desert tortoise biologists and traffic engineers to find the optimum 
combination of traffic flow and tortoise movement as we sought a new 
alignment the roadway. (Attachment #1--Northern Corridor Alignments 
Map). The new 4-mile long route proposed in the bill is located as 
close to the NCA southern boundary as is feasible. The 300-foot wide 
corridor is 4.3 miles long covering only 147 acres of the Red Cliffs 
Reserve. I want to emphasize that the roadway crosses only 1.9 miles of 
the National Conservation Area created in P.L. 111-11 (the 2009 Omnibus 
Public Lands Act) impacting only 65 acres. The route minimizes 
fragmentation of habitat and requires two large span bridges that would 
allow tortoises to pass below without ever noticing a road. It will 
also include large culverts designed for tortoise connectivity. H.R. 
5597 does not circumvent the procedures required by the Endangered 
Species Act and its accompanying regulations. That means that the 
combination of building this new road and adding Zone 6 must not be 
detrimental to the recovery of the desert tortoise.
    Water and power lines that run across the Red Cliffs Reserve are 
necessary to supply the needs of our growing population. Much of our 
communities' groundwater is in the sandstone aquifers in the Reserve. 
In 1996, the partners in the HCP recognized that need, so we jointly 
and cooperatively developed utility development protocols that set 
standards for how utility development and maintenance can be managed to 
avoid harm to the tortoises. The utility development protocols have 
been in place and working for years. In fact, Congress recognized the 
value of the protocols when it codified their applicability to the Red 
Cliffs National Conservation Area in Public Law 111-11. The language of 
the bill specified that the creation of a National Conservation Area 
didn't affect the continued use of the utility development protocols in 
the areas where the Reserve and National Conservation Area overlap.
    H.R. 5597 provides more than ample mitigation for full 
implementation of P.L. 111-11. Public Law 111-11 (which was signed by 
President Obama in 2009) created the 45,000 acre Red Cliffs National 
Conservation Area (NCA) and directed BLM to identify a transportation/
utility corridor across the NCA. The corridor is vital to reduce 
traffic congestion and improve air quality.
    As mitigation for these impacts on the Reserve and NCA, the County 
is prepared to add an additional 6,835 acres of prime tortoise habitat, 
called Zone 6, (Attachment #2--Zone 6 Map) most of which is owned by 
the State of Utah's School and Institutional Trust Lands Administration 
(SITLA). Not only are the state lands in that area developable, but 
they are also highly recreated. As we studied the area, we learned that 
the tortoise densities there are higher than densities in the Reserve. 
Rather than allow the area to be developed and lose the recreation and 
the tortoise habitat, we are proposing to add the area to the Reserve, 
manage the recreation, and use it to mitigate for possible impacts from 
utility and transportation development.
    Washington County biologists and Utah Division of Wildlife 
Resources (UDWR) conducted comprehensive tortoise surveys in the 
proposed Zone 6 during the spring of 2017. The tortoise density is 
actually higher than our estimate for the rest of the Red Cliffs Desert 
Reserve. Approximately 30 percent of our tortoise observations were of 
juvenile tortoises, indicating a growing reproductive population. 
Washington County also initiated a citizen science project in the 
adjacent areas soliciting tortoise observations by local trail users. 
Citizens have submitted photos and locations of over 80 tortoises they 
encountered while hiking or biking on trails in the area. This data, in 
combination with our survey results and historic sightings, indicate a 
healthy tortoise population that would be a valuable addition to the 
Red Cliffs Desert Reserve. Protection of these lands from development 
will also benefit federally endangered plants and other sensitive 
species unique to our area.
    The acres not necessary to mitigate for the Northern Corridor will 
be banked against future needs as was done in the Clark County, Nevada 
desert tortoise HCP.

    In summary, the bill, if passed into law would:

    <bullet> Expand the HCP by creating an additional 6,865-acre 
            reserve with rich desert tortoise habitat known as Zone 6,

    <bullet> Renew the HCP agreement for 25 years,

    <bullet> Require Washington County and the BLM to manage Zone 6 in 
            accordance with the provisions of the existing HCP 
            agreement,

    <bullet> Apply the existing utility development protocols to 
            include Zone 6 as well as other areas covered by the HCP,

    <bullet> Allow for recreation to continue in Zone 6 on designated 
            trails, including hiking, biking, horseback riding, and OHV 
            use on designated roads,

    <bullet> Provide mitigation credits for the tortoises protected in 
            Zone 6,

    <bullet> Allow for the eventual construction of a northern corridor 
            crossing 4.3 miles of the Red Cliffs Desert Reserve,

    <bullet> Require BLM to amend the existing plans to accommodate 
            Zone 6,

    <bullet> Clarify the width of the right of way (ROW) for Old 
            Highway 91 as a 300 foot ROW on federally managed lands,

    <bullet> Clarify that the NCAs are not entitled to any Federal 
            water rights, and

    <bullet> Preserve existing utility and grazing rights in Beaver Dam 
            Wash.

    I really appreciate the work that Congressman Stewart and his staff 
have put in with us on solving these problems. Passage of this bill 
creates a win for all of the stakeholders. Thank you.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

    Mr. McClintock. Great, thank you for your testimony.
    That concludes our testimony on H.R. 5597. We will now go 
to the Committee questions, and I will begin.
    Mr. Cox, I grew up in Southern California. As a kid, I 
found desert tortoises very easy to please. One of the over-
arching objectives of this Subcommittee is to be a good 
neighbor to local communities. Does this bill have the full 
support of Washington County?
    Mr. Cox. This bill is really necessary for us. I appreciate 
your position. Being from Southern California, we share a lot 
of things in common with you, in fact, a lot of desert tortoise 
habitat.
    In California and, in fact, anyplace else in its habitat, 
the highest density of tortoise is just over seven animals per 
square kilometer. In Washington County, we have more than 15 
tortoises per square kilometer on the average, and this area 
that we are planning to add has surveyed, and we estimate that 
it has more than 500 tortoises in it.
    This little piece of roadway that we would need to develop 
the Northern Corridor we estimate would disturb 10 to 20 
animals. And we would work very hard to make that disturbance 
as absolutely minimal as possible by designing porosity and 
other factors in the road to maintain the integrity of that 
for----
    Mr. McClintock. Let me get back to the principal question I 
have, and that is do the local communities of Washington County 
support this bill?
    Mr. Cox. Oh, yes. We have resolutions that support it--and 
I am a little hard of hearing, but we have resolutions that 
support from St. George City, which has about half of the 
county's population. In addition, Washington City has passed a 
resolution of support, La Verkin has passed one, Ivins has 
passed one, Hurricane has just passed it, and Santa Clara has 
it on their agenda.
    Mr. McClintock. These are all the elected representatives 
of the people of Washington County?
    Mr. Cox. That is correct. I would say this would represent 
more than 80 percent of the county's population.
    Mr. McClintock. Commissioner Cox, how did you come upon 
that title, ``Commissioner''?
    Mr. Cox. How did I do what?
    Mr. McClintock. How did you come upon that title of yours, 
``Commissioner''? Was that conferred upon you by a majority of 
the voters?
    Mr. Cox. Yes, I was elected by the voters of Washington 
County and I received 75 percent of the vote of the county.
    Mr. McClintock. Just out of curiosity, Mr. Van Dam, which 
voters in the jurisdictions of Washington County do you 
represent?
    Mr. Van Dam. Well, I am simply a former attorney general of 
the state of Utah, the only Democrat to be elected in a long 
time.
    Mr. McClintock. Yes, but do you represent any of the 
communities currently in Washington County?
    Mr. Van Dam. No. I represent none of the communities.
    Mr. McClintock. Did you represent a homeowners association 
within Washington County?
    Mr. Van Dam. No, I represent an organization that is 
interested in----
    Mr. McClintock. Thank you. Commissioner Cox. How did you 
come upon this new habitat? How was it selected?
    Mr. Cox. This has been a very intriguing process. We have 
known for some time that the area west of Bloomington, south of 
Santa Clara, west of St. George, had a lot of tortoises. It was 
also pre-eminently state institutional trust land property.
    We have developed a close working relation with SITLA and 
many other entities and recognized that the renewal of the HCP 
is good for the county, it is good for our residents. And SITLA 
wanted to know, really, what they could do to help. This 
investment is good for the state institutional trust lands 
because it allows them to move forward with other lands in more 
developable areas of the county.
    We had the Department of Wildlife Resources do transects. 
In fact, more than 340 kilometers of transects were done to get 
an accurate count or estimation of the number of tortoise in 
this Zone 6. This really is great mitigation. It is going to be 
consistent with a process we called Vision Dixie, which calls 
for us to preserve our signature scenic landscapes and maintain 
our air and water quality by keeping our vital transportation 
system functional and moving. It serves all of those purposes.
    Mr. McClintock. Just one final question and that is, is 
there a precedent for this kind of arrangement?
    Mr. Cox. I am actually not aware if this precedence has 
happened someplace else in an NCA. But I can tell you that 
Public Law 111-11--that is the omnibus act that was the 
Washington County lands bill--directed the BLM to identify one 
or more routes for a northern corridor. They failed to do that. 
We feel that there is a lot of precedence from Congress for 
this route, and we are working hard to make that also 
environmentally secure.
    Mr. McClintock. Great, thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Van Dam, you were finishing your testimony when you ran 
out of time. Is there anything more you would like to add 
before I ask you any questions?
    Mr. Van Dam. I would just like to respond to some of the 
information that has gone back and forth here, because there is 
another side to that.
    Ms. Hanabusa. Yes. Well, we will get to that with the 
questions.
    Mr. Van Dam. No, I was virtually to my last two lines 
thanking you for the opportunity in the time I had left.
    Ms. Hanabusa. Oh. Just so that I am clear, you are here 
representing the Conserve Southwest Utah organization?
    Mr. Van Dam. That is correct.
    Ms. Hanabusa. What is your position with the Conserve 
Southwest Utah?
    Mr. Van Dam. I am a member of the board and an advisor.
    Ms. Hanabusa. And is this conservation organization in 
Washington County?
    Mr. Van Dam. Yes.
    Ms. Hanabusa. It is?
    Mr. Van Dam. Exclusively.
    Ms. Hanabusa. So, it deals only with Washington County, the 
subject of this testimony today.
    Mr. Van Dam. That is correct.
    Ms. Hanabusa. You also mentioned that you were the elected 
attorney general in the state of Utah. The only Democrat, I 
think you said.
    Mr. Van Dam. Yes, a lonely Democrat in Utah.
    Ms. Hanabusa. So, when this whole thing occurred, and I am 
talking about the existing Habitat Conservation Plan and what 
happened in Washington County, were you in the position of the 
attorney general at that time?
    Mr. Van Dam. When what occurred, ma'am?
    Ms. Hanabusa. When the Habitat Conservation Plan was 
established under the Endangered Species Act.
    Mr. Van Dam. No, I was not. I was a new resident of 
Washington County. I had lived in Salt Lake City. I have owned 
property in Washington County for over 40 years and I moved 
there 10 years ago. This is about the same time I moved down.
    Ms. Hanabusa. OK. You wanted to clarify some points that 
were being made. And as I was listening to Mr. Cox it seemed 
like there was not an agreement on certain things like the 
road. Can I have your position on that?
    Mr. Van Dam. One of the things that bothers me is that in 
2008, our Senator Bennett and Representative Matheson at the 
time passed a bill, an omnibus bill, that affected much of the 
property in our county. And in that bill it is commonly said 
that it provided for a northern corridor.
    And the fact of the matter is that that bill did not pass 
in its first iteration and underwent extensive changes. When it 
got back for re-passage, that part of it had been taken out, 
because the bill provided for a right-of-way for the Lake 
Powell pipeline, and it provided for a northern corridor. And 
that had been taken out of the bill. And the Senator said in a 
public statement that those two things had been changed.
    The other thing is it is very important to understand that 
even though they say they are only going through a small part 
of this preserve, that is not technically correct, because they 
are going through another part of the reserve that is not rated 
in the same way. And the allegation that our tortoise 
population is the highest among these types of tortoises is 
correct, but it has declined 40 percent over the last 7 years. 
So, it is not doing as well as we would like it to do, but 
doing better than other places in the country.
    Our great fear is that the precedent established by 
allowing a road, a highway through an NCA is going to be a very 
difficult matter for us to deal with. So, we would rather not 
have that as a precedent.
    Ms. Hanabusa. In your written testimony, you were talking 
about the Omnibus Public Lands Bill of 2009, and you were 
talking about the original bill of 2006, and that it languished 
all the way through, and when it finally passed--these are the 
series of bills that you are talking about, right?
    Mr. Van Dam. Yes.
    Ms. Hanabusa. In the short period of time that you have 
left, when you said that the population of tortoises have 
declined about 40 percent from what they were when you 
originally moved there, is that correct?
    Mr. Van Dam. That is correct.
    Ms. Hanabusa. And what caused the decline?
    Mr. Van Dam. There have been natural wildfires, there have 
been upper respiratory problems we have had there, and the 
habitat that they are in now is not like the habitat that they 
had when they lived in the valley and had to be removed some 20 
years ago. It is just simply a more difficult place for them to 
survive.
    But our county then had 300,000 acres opened up for 
development and for people by moving the tortoises up. We 
really feel strongly that should be left alone at this point. 
They have given up everything they could and this is their 
habitat.
    Ms. Hanabusa. Thank you. We are out of time.
    Mr. McClintock. Further questions on this bill?
    Mr. Curtis.
    Mr. Curtis. Yes, thank you.
    Commissioner, it is nice to have you here in Washington, 
DC. I do have some questions, but I would actually prefer to 
yield my time to Congressman Stewart.
    Mr. Stewart. I would like to thank my friend, Mr. Curtis. 
And I will be brief, so we can retain some time for you, if I 
could.
    Commissioner Cox, I am going to read you the language--and 
this is not a press release, this is not a private statement, 
this is not a comment in front of a group of people--this is 
the actual language of the bill, as it currently exists, not 
something that was removed or deleted in an omnibus. This is 
the language of the bill. It clearly states that the government 
entities identify one or more alternatives for a northern 
transportation route.
    As you read that, can you read that in any other way than 
it would allow you and encourage what they foresaw, and that is 
the necessity for this road to eventually be built?
    Mr. Cox. I can't read that any other way, and I have read 
that bill several times. It is quite clear that the BLM was 
directed to identify one or more routes in its travel 
management plan.
    Mr. Stewart. So, it seems to me that this current law, what 
we are doing here is just complying with the intent of 
Congress, as expressed in this piece of legislation.
    Mr. Cox. It is consistent with it. And in fact, the utility 
development protocols are also in Public Law 111-11, and they 
are clearly defined. It states that BLM may use these protocols 
in its resource management plan. The BLM chose not to do that 
in the Record of Decision that was signed in December of 2016. 
And had they had done that, as I feel was the intent of 
Congress, this wouldn't be necessary in this bill again today.
    Mr. Stewart. Yes, thank you. I agree with you on that.
    One other thing I want to mention is, look, let me just 
state the obvious. It is your intention, and you representing, 
as you said, 75 percent of the voters, but more broadly, you do 
represent, as the leader, the commissioner there. This county 
that I love and represent, they want to protect this tortoise. 
Have you ever talked to anyone who does not want to protect 
this tortoise?
    Mr. Cox. No, I haven't. I think that the desert tortoise is 
dear to all of us. And that is why we have taken such effort to 
make sure that the tortoises that have been displaced with this 
growth have actually been relocated and are thriving.
    In Nevada, California, and other places that has not 
happened. They have just bulldozed over them. But we care about 
the tortoise----
    Mr. Stewart. Which is my point, and that is--you alluded to 
it and mentioned some of it, and that is the remarkable 
achievement of the county under county leadership and others to 
talk about the tortoise population.
    Could you give us an idea? Do you know the answer to the 
question, have these tortoise populations increased under this 
county plan, or decreased over the last----
    Mr. Cox. I could tell you that the tortoise population 
decreased from when the plan was signed to 2007. In 2005 and 
2006, Washington County was ravaged by fire. I am sure all of 
our friends from California can relate to the fire. In fact, in 
those 2 years, 25 percent of all 1,500 square miles in 
Washington County burned. It was an unfortunate event, and it 
had tortoise mortality.
    But I actually have reports from the Utah Division of 
Wildlife Resources, page 9, and we have that in the record, 
that says since 2007 tortoise populations within the Red Cliffs 
Desert Reserve appear to have stabilized, and there is no 
evidence of further declines in tortoise densities.
    In fact, the population trend since 2007 has not only 
stabilized, but it is a positive trend, according to the 
figures on pages 46 and 47 of that report.
    Mr. Stewart. Thank you. And I guess there is nothing that 
you or anyone else could have done about those fires.
    Mr. Cox. It was an unfortunate thing. But we had years of 
drought, and then massive amounts of water that caused a lot of 
fuel. We had the cheatgrass invasion that fueled that. And the 
important thing is those populations have stabilized and are 
growing for the past 11 years.
    Mr. Stewart. Thank you.
    Mr. Curtis, I yield the remaining 15 seconds to you. I was 
selfish, I apologize.
    [Laughter.]
    Mr. Curtis. No problem. In those few seconds, I think I 
would just like to confirm.
    Your county, I am assuming, is growing like the rest of the 
state and you are under huge pressures for growth and planning. 
And I know you don't have time to answer that question, but I 
would like to make sure that is on the record. Thank you.
    Mr. Cox. Thank you.
    Mr. McClintock. Further questions on this bill?
    Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chairman. My question first 
is for Mr. Van Dam. You are a Washington County resident. Would 
you say that part of the reason that you live there is because 
of the beautiful protected lands? Tell us how you see this 
highway corridor would affect the integrity of these protected 
spaces.
    Mr. Van Dam. My concern with this highway corridor, and I 
do love the county and I am living there happily, is that it 
sets a precedent in the most protected area, a precedent that I 
know a lot of other people in this country would like to 
follow. And I think we have to be very careful with precedent.
    I have Senator Bennett's words here. And after his bill in 
2008 had been changed, he said, ``We have removed the corridor 
designations for the Lake Powell pipeline corridor and the 
northern corridor that bisected the Red Cliffs Desert 
Reserve.'' That is his own quote.
    The Northern Corridor was meant for a different purpose 
than what it is being quoted for here, because it was meant to 
take off from our main highway, I-15, and go quite a ways up a 
highway that goes north. Its purpose was quite different than 
what the commissioner is making it to be.
    The other thing you need to know is this road is going to 
meet up with another road. There is a road called the Red Hills 
Parkway that goes around and carries most of the traffic 
northward above the city. This road duplicates that road, and 
then it actually joins that road about a mile from Highway 18 
that they want to get people to. And there is going to be a 
traffic jam there of epic proportions because this road coming 
across the reserve and going into an existing parkway that is 
only a four-lane parkway, eight lanes then going that 
direction, does not resolve the traffic problem.
    Another one of our issues is that independent studies have 
not been concluded to see what else could be done to move 
traffic more efficiently in that direction. This is not even a 
resolution to their problem.
    So, the corridor has a lot of negative aspects to it, and 
it will not solve the problem. As the fastest-growing community 
or county and state in the Nation, our community is absolutely 
an amazing thing to watch. You can almost see it grow from up 
on the hill. This road does not solve the problem, that's for 
sure, because of its very design. I don't know if anything more 
can be done, and I believe nothing more can be done.
    But the fact that it joins up with the very road it is 
supposed to supplement a mile before the junction with the main 
highway will be a traffic nightmare of almost unimaginable 
proportions. And we think that a lot better can be done than 
endangering endangered species.
    Dr. Lowenthal. Following up, have you spoken to the 
original administrator of the Washington County Habitat 
Conservation Plan about this proposed corridor? And what did he 
say about it?
    Mr. Van Dam. If I may, sir, my hearing is not very good.
    Dr. Lowenthal. Have you spoken to the original 
administrator of the Washington County Habitat Conservation 
Plan regarding the proposed corridor? And what did he say about 
it?
    Mr. Van Dam. The proposed corridor is not favored by the 
administrator.
    Dr. Lowenthal. It is not?
    Mr. Van Dam. That is correct.
    Dr. Lowenthal. You mentioned you were the former attorney 
general. Do you think that building a highway through a 
national conservation area is in keeping with the legislation 
that protected the Red Cliffs in 2009? I think you mentioned a 
little bit about that earlier.
    Do you think that this is consistent with the legislation 
that led to the protection of Red Cliffs in 2009? Is building a 
highway through this national conservation area consistent with 
that legislation?
    Mr. Van Dam. It certainly is not consistent with it. And it 
is almost unthinkable, because of what was gone through 20 
years ago in establishing the reserve and establishing the NCA 
was a very long and difficult process. And everything that has 
gone on since then for 20 years, in buying all the property 
within there, preserving the tortoises, spending an amazing 
amount of time and effort is basically undone in the sense that 
this highway now, a 300-foot-wide--think about that for just a 
minute, a 300-foot-wide corridor. That is a football field wide 
going across there. And the amount of miles that they say it is 
going to go across is quite minimal, compared to----
    Mr. McClintock. I am sorry, but----
    Dr. Lowenthal. I am going to have to yield back, but thank 
you for your answer.
    Mr. Van Dam. Thank you.
    Mr. McClintock. Further questions?
    Chairman Bishop.
    Mr. Bishop. All right, let me do this quickly, then.
    Commissioner Cox? Why do you need the road? Very quickly.
    Mr. Cox. We need the road because the county is growing. My 
wife is on the school board. I am honored to have her sitting 
behind me. But she told me the other day that we have 33,000 
children in our K through 12 program. Two-thirds of Washington 
County's growth is internal growth. I am a fifth-generation 
native, and this highway is necessary to protect our water, our 
air, and to be able to move efficiently without being stuck in 
gridlock.
    Mr. Bishop. It is not just moving people. You are also 
having utility corridors in the same area. Correct?
    Mr. Cox. Yes.
    Mr. Bishop. That same area?
    Mr. Cox. That is the reason for the width. And then we want 
to put a bike path on it, too. A lot of people want to be able 
to ride a bike or walk----
    Mr. Bishop. No, don't put the bike, that would be 
recreation. That is obviously what people are not talking about 
here.
    I am assuming you did studies on this stuff.
    Mr. Cox. Yes. In fact, I am not a traffic engineer, but 
UDOT has many of them, and UDOT would be the lead agency on 
this road. Their traffic engineers tell us it would carry 
32,000 cars per day.
    Mr. Bishop. I have been down there a lot. Last time I was 
there, I told you, 3 days and it rained every day. So, when you 
need to break the drought again, just invite me back down.
    Mr. Cox. We need you to come back. It is getting dry again.
    Mr. Bishop. I am appreciative of what you are talking 
about, the rehabilitation of the species that actually is not 
native to Washington County in the first place, but I hate to 
say this. I was here while these bills were going forward, and 
I was working with Senator Bennett and Congressman Matheson 
because I was on the Committee and they were not.
    It is interesting that this bill, the one that was actually 
finally passed in an omnibus that talks about our process being 
poorly run, was never heard in any place on the House side. 
They didn't give Mr. Matheson a hearing on this bill at all. It 
had one hearing in the Senate before it was actually placed in 
an omnibus bill.
    But it is very clear, from the discussions with all of 
them, that the idea of a proposal was to have a road in this 
area, but not presupposed where that road actually would be. 
And that is why it was always there, that is why the language 
is there, that is why this is a long time coming, but needs to 
be there.
    Mr. Stewart, I have 2 minutes left. Do you have anything 
you would like to use for my time?
    Mr. Stewart. I will go very quickly, Chairman, thank you.
    I just want to be clear, you have consulted with traffic 
and transportation experts on this plan?
    Mr. Cox. We have. This road has been a key part of our 
transportation plan, and the Dixie Metropolitan Transportation 
Organization----
    Mr. Stewart. OK, and I am going to accelerate, because I 
only have a few minutes. So, they conclude that this route, is 
the best----
    Mr. Cox. It is not the very best route for a road in terms 
of being the least expensive to construct. We also talked with 
biologists, Fish and Wildlife, and others, and that is why we 
brought the boundary of the road much farther to the south, so 
that it would not bifurcate the reserve.
    Mr. Stewart. OK, so experts were consulted and this was 
their conclusion?
    Mr. Cox. That is right. This would cost a little bit more 
to build----
    Mr. Stewart. But, all around, the best----
    Mr. Cox. It would meet those transportation needs.
    Mr. Stewart. Now, let's consider this, and we have to go 
quickly--let's suppose that you are not authorized to do this, 
that Congress prohibits you from doing this road. Tell us the 
result of that. Because it seems to me that, environmentally, 
we take a step backward instead of forward if that is the 
outcome.
    Mr. Cox. What happens is we start having our major 
intersections fail. Currently, right now, intersection 10 on I-
15 is failing. That is Washington. As you look at the plans, 
they just ripple on out and come into St. George.
    If you come down on President's Day weekend right now, you 
will queue up for half-a-mile before you are able to get on the 
freeway. And that intersection hasn't failed yet. It will be 
interminable when our population is 10 times larger.
    Mr. Stewart. When we have a larger population and failed 
transportation systems, are there environmental impacts from 
that?
    Mr. Cox. It is going to absolutely degrade our air and 
water quality because of the number of cars that cannot move 
efficiently. They will just be stuck in gridlock.
    Mr. Stewart. Yes. And for those of us who live on the 
Wasatch Front, which is the area around Salt Lake City, who 
have air inversions and other poor air quality that you don't 
have, we are trying to----
    Mr. Cox. That could be coming our way if we don't get this.
    Mr. Stewart. We are trying to make it so you don't become 
like Salt Lake City, with the air inversions and that.
    Mr. Cox. That is correct.
    Mr. Stewart. All right, thank you.
    And again, to the Chairman and the Ranking Member, thank 
you for letting me participate in this hearing.
    Mr. McClintock. Thank you.
    Further questions on the bill?
    Seeing none, that concludes our hearing on H.R. 5597. I 
want to thank both of you for joining us today and for 
traveling all this way to be here. Again, you are most welcome 
to stay if you would like. If you have better things to do, you 
are certainly welcome to leave.
    With that, we will take up our final bill, H.R. 5875, and 
the Chair would recognize Miss Gonzalez-Colon of Puerto Rico to 
present the bill.
    I am sorry, I apologize, that was for an introduction. The 
Chair recognizes Ms. Bordallo to present the bill. My 
apologies.

 STATEMENT OF HON. MADELEINE BORDALLO, A DELEGATE IN CONGRESS 
                   FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Thank you very much. I want to thank Chairman 
Bishop for being with us today, and of course Chairman 
McClintock and Ranking Member Hanabusa for putting my bill on 
the hearing schedule today.
    H.R. 5875 is supported by all six Members representing U.S. 
territories and the District of Columbia, and would fix a 
problem that has gone overlooked for decades and decades. This 
bipartisan bill would amend two Federal laws, the Pittman-
Robertson and the Dingell-Johnson Acts, to provide parity for 
the five territories and DC with the 50 states under those 
laws' Federal funding formulas.
    These laws would provide Federal funding to support fish 
and wildlife conservation and enhance hunting, sportfishing, 
boating, and other outdoor recreational opportunities at no 
cost to the taxpayers. Each state territorial fish and wildlife 
agency receives a yearly allocation of this Federal funding 
from the U.S. Department of the Interior. However, current 
Federal law places arbitrary caps on how much funding the five 
territories and DC can receive.
    For example, each state is guaranteed at least a 1 percent 
share of the yearly Pittman-Robertson apportionment, with the 
Secretary of the Interior having the discretion to award more 
funding based on population and other factors. However, current 
law caps Guam, Puerto Rico, and the other territories' shares 
at just \1/6\ of 1 percent. That means that all five 
territories combined receive less than a single state's 
Pittman-Robertson allocation each year.
    The bill would fix this to provide each territory the 
minimum 1 percent allocation guaranteed for each state. For 
Dingell-Johnson, current law also caps arbitrarily the 
territories and DC's yearly allocations. Guam, American Samoa, 
the Northern Mariana Islands, the U.S. Virgin Islands, and the 
District of Columbia are each capped at just \1/3\ of 1 percent 
for Dingell-Johnson funding.
    Puerto Rico's yearly share is capped at just 1 percent, 
despite a population greater than nearly two dozen states. 
Their population today averages about 3.7 million. The bill 
would fix this by removing these arbitrary caps to allow the 
Secretary of the Interior to exercise his or her full 
discretion in allocating the Dingell-Johnson funding to each 
territory and DC, based on the same criteria that is applied to 
the states.
    The bill would also make technical changes in the U.S. Code 
to correct typos, drafting errors in these laws, and make them 
all more reader-friendly.
    Finally, it is important to remember that when we talk 
about the five territories and DC, we are talking about more 
than 4.4 million Americans. Some laws were put on the books, 
Mr. Chairman, before many of the territories or DC had elected 
Members to the House. In fact, the Federal Aid and Wildlife 
Restoration Act was passed in Congress in 1937, before many of 
us were born. That is the cause of a lot of these parity 
issues, in my mind.
    Absent Federal support, many conservation projects and 
programs in the territories simply will never happen, as 
limited territorial budgets often struggle to meet our 
residents' basic needs.
    Again, I want to thank you, Mr. Chairman and Ranking 
Member, for this hearing, and my original co-sponsors from the 
territories and DC for their support.
    I yield back.
    Mr. McClintock. Thank you very much for your testimony. Now 
I will introduce the delegate from Puerto Rico, Miss Gonzalez-
Colon, to introduce our witness.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. I really 
appreciate your time. And I want to thank you, the Ranking 
Member, and my friend, Ms. Bordallo, for letting me participate 
with this bill, and all the territory delegates for this 
bipartisan initiative.
    I think this is part of the efforts that we are doing for 
making justice for all the Americans that are living in the 
territories for having equal participation and lifting the cap 
on many other issues.
    I want to welcome especially Mr. Jose Aponte-Hernandez, who 
is a former Speaker of the House in Puerto Rico, and I have 
known him for many years. He is a very experienced legislator. 
He was a former Speaker of the House, and currently is the 
Chair of the Federal Relations Committee in the House. He has a 
lot of experience in many issues in the Puerto Rico House of 
Representatives, and I do know that he is a fighter for 
equality on the island. And he knows, because he is chairing a 
lot of the issues of the application of Federal laws on the 
island actually with the local agencies, in terms of revealing 
the unequal treatment in those Federal programs.
    I am happy that he actually made it today, and I know that 
today the governor of Puerto Rico has his message to the 
budget, and he is here. So, thank you for coming on a short 
notice. I look forward to his testimony and his insight on this 
subject.
    With that, I yield back the balance of my time.
    Mr. McClintock. That is by means of introducing Mr. Aponte, 
who is recognized.

  STATEMENT OF HON. JOSE F. APONTE-HERNANDEZ, REPRESENTATIVE, 
              PUERTO RICO HOUSE OF REPRESENTATIVES

    Mr. Aponte-Hernandez. Thank you. Good afternoon, Chairman 
Bishop from the Natural Resources Committee, Chairman 
McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee of Federal Lands. Thank you to the Committee and 
the Committee's leadership for convening this hearing and for 
the opportunity to address this honorable Committee in support 
of the H.R. 5875.
    Any legislation that promotes greater equality for all 
living under the U.S. flag is more than welcomed. I 
congratulate Congresswoman Bordallo and my Resident 
Commissioner Gonzalez-Colon, as well as Congresswoman Norton, 
Congressman Sablan, and Congresswomen Radewagen and Plaskett 
for co-sponsoring this bipartisan initiative.
    H.R. 5875 would promote equality and justice in treatment 
for the U.S. territories and the District of Columbia in the 
assignment of funds for fish and wildlife restoration that are 
raised by taxes on hunting and fishing supplies. Currently, a 
very low, fixed amount of these funds is assigned to DC, Puerto 
Rico, and the rest of the U.S. territories. These are mostly 
islands where outdoor activities are a major economic factor 
and an essential element of the quality of life, and DC, which 
is one of the most important watersheds on the continent.
    The importance of these issues for the U.S. territories is 
not inferior to the other regions of the Nation. The Puerto 
Rico Department of Natural and Environmental Resources employs 
these funds to support maintenance of sports fisheries which 
represent some $70 million a year in economic activity and to 
provide hunter location. The Department is extremely dependent 
of these funds, even in normal times. And I should not need to 
say we are not in normal times.
    The U.S. Department of the Interior announced that of this 
program, Puerto Rico will get about $3.5 million this fiscal 
year for fisheries, which is equivalent to the amount assigned 
to the smallest states; and another $3.5 million for wildlife 
restoration, which is $1.3 million less than the amount 
assigned to smaller states. Each of other territories receive 
only about a third of this amount.
    The information may seem insignificant in the face of 
national budgets, but are relevant for communities in economic 
distress who have the same obligation to comply with 
conservation policies as any other jurisdiction in the United 
States. This bill improves their treatment in an area that will 
foster economic development.
    As a devout and staunch supporter for statehood for Puerto 
Rico, I am not only in favor of more equitable treatment for 
the island, but full parity with all the rights and 
responsibilities it entails: precisely the same principles that 
guide our service bases for our call for appropriate treatment 
for our living in the United States. We should not be expected 
to settle for less. This happens in too many aspects: health 
care, infrastructure, public safety, and security. We need to 
make sure it is corrected.
    I support H.R. 5875. I respectfully urge the Members to 
look beyond this Committee's jurisdiction at programs under the 
jurisdiction of all committees you sit in where these U.S. 
territories that are under the same flag get treated unequally. 
I count on you to do what is right, and I thank you for your 
attention.

    [The prepared statement of Mr. Aponte-Hernandez follows:]
 Prepared Statement of Jose F. Aponte-Hernandez, Puerto Rico House of 
Representatives, Chairman, Committee on Federal, International Affairs 
                          and Status Relations
                         Statement on H.R. 5875
    Hon. Tom McClintock, Chairman; Hon. Colleen Hanabusa, Ranking 
Member; and members of the Subcommittee, thank you to the Committee and 
Subcommittee leadership for convening this hearing and allowing me to 
address you in support of H.R. 5875.
    Any legislation that promotes greater equality for all who are 
living under the U.S. flag is more than welcomed. I appreciate and 
welcome the opportunity to support such an effort and congratulate 
Congresswoman Bordallo, Resident Commissioner Gonzalez-Colon, 
Congresswoman Holmes Norton, Congressman Sablan, and Congresswomen 
Radewagen and Plaskett for co-sponsoring this bi-partisan initiative.
    H.R. 5875 would promote equality and justice in treatment for the 
U.S. Territories and the District of Columbia in the assignment of 
funds for fish and wildlife restoration that are raised by taxes on 
hunting and fishing supplies, under the Pittman-Robertson Wildlife 
Restoration Act and the Dingell-Johnson Federal Aid in Sport Fish 
Restoration Act.
    Currently, a very low fixed amount of these funds are assigned to 
DC, Puerto Rico and the rest of the U.S. Territories. This is because 
rather than the formula for the rest of the states, which fixes a 
minimum and a maximum of funding to be adjusted according to geography 
and participants in outdoor activity, the formula for the territories 
established fixed amounts, which for some programs must then be split 
six ways amongst the U.S. Territories.
    However, five of those jurisdictions are tropical insular areas 
where the natural environment and the enjoyment of outdoor activity are 
major factors in their economies and their quality of life. For 
instance, DC is in the middle of the Chesapeake watershed, one of the 
most important aquatic systems in the East Coast. So, the need for 
attention to these issues in these regions is of no less importance 
than in other parts of the Nation.
                         fishing in puerto rico
    Fishing in Puerto Rico is both recreational and commercial at both 
sea and fresh water lakes. We have over 1,000 commercial fishermen whom 
generate $7 million ($7,000,000) a year in wholesale and $21 million 
($21,000,000) in retail activity. The over 150,000 recreational 
fishermen in both seawaters and lakes generate over $70 million 
($70,000,000) a year in economic activity.
    Especially in the aftermath of the recent weather events and 
disasters, runoff, silting, and contamination from the disaster debris 
have impacted many of our bodies of water. One of our most important 
freshwater lakes, Lake Guajataca, suffered from damage to the dam 
structure, requiring it to be partly emptied. Sea fishing, of course, 
suffered enormous losses to the boat fleet and to the shore facilities 
for fishermen. Our commercial fishermen are mostly small scale, 
community based, not corporate entities. Fisheries have also suffered 
for years from the presence of invasive species like lionfish.
                         hunting in puerto rico
    Each year some 5,000 hunting licenses are issued in Puerto Rico. 
Hunting in the main island of Puerto Rico is limited to birds, with a 
pigeon season running from September to October (which did not happen 
this year due to the disaster situation); a waterfowl season in 
November and early December; while in the offshore natural reserve of 
Mona Island, there are both shotgun and bow-and-arrow hunting seasons 
from December to March to control the populations of wild goats and 
hogs. The Hunter Education Program in Puerto Rico is supported, in the 
face of its limited funding, by certified volunteer instructors who 
lend their expertise to new would-be sportsmen.
    In both cases the Puerto Rico Department of Natural and 
Environmental Resources needs to make sure they are properly cared for, 
and the Department is extremely dependent on these Federal funds even 
in normal times. However, we are not in normal times. I do not have to 
remind the enormous disaster recovery task and our public finances 
situation. Too often nature protection is left behind when money is 
short. Having these programs available enables the Department to manage 
the recreational fisheries and wildlife populations to sustain much 
needed economic activity.
                            funds this year
    From the Department of the Interior's own announcement for Fiscal 
Year 2018, we see that, out of these funds, for fishery restoration 
Puerto Rico received $3,519,175, just the exact minimum quantity given 
to the smallest states such as, for example, Delaware, who have a much 
smaller geographic extension and smaller number of bodies of water. 
Meanwhile, on the side of wildlife restoration, we received $3,452,263 
which is about $1.3 million less than the least of the states. The 
other Territories ended up receiving about a third of what Puerto Rico 
receives, in each of the different programs. Now, these amounts may 
seem little in the face of the national budgets of hundreds of 
billions, but it is significant for our economies, and invaluable for 
communities in tight economic times who also need to comply with the 
same conservation standards and policies as the other jurisdictions in 
the Nation.
    In Puerto Rico, we were a bit more fortunate than our brothers in 
other U.S. Territories since we got about a half percent more of the 
funding but still, we stand for fairer treatment for all. As a devoted 
and staunch supporter of statehood for Puerto Rico I am not only in 
favor of more equitable treatment for the Island, but of full parity, 
with ALL the rights AND responsibilities it entails. Precisely, the 
same principles that guide our claim serve as a basis for our call for 
proper treatment for all living in the United States, who should not be 
expected to settle for less. This happens in too many aspects--health 
care, infrastructure, public safety and security--we need to make sure 
it is corrected.
    I fully support H.R. 5875 and respectfully urge the Members to look 
beyond this Committee's jurisdiction, at programs under the 
jurisdiction of all committees you sit in, where these U.S. Territories 
that are under the same flag get treated unequally. I count on you to 
do what is right, and I thank you for your attention.

                                 ______
                                 

            Supplemental Testimony Submitted for the Record

               PUERTO RICO HOUSE OF REPRESENTATIVES

                                                       May 31, 2018

Hon. Tom McClintock, Chairman,
Hon. Colleen Hanabusa, Ranking Member,
House Subcommittee on Federal Lands,
U.S. House of Representatives,
Washington, DC 20515.

Re: Extension of Remarks and Correction of Testimony on H.R. 5875

    Dear Chairman McClintock and Ranking Member Hanabusa:

    During the Legislative Hearing of the Subcommittee on May 22, 2018, 
a question was raised by the Chair and by Congressman Sablan of the 
Northern Marianas, on whether the Federal excise taxes on hunting and 
fishing supplies, to be shared with the territories under the Pittman-
Robertson Wildlife Restoration Act and the Dingell-Johnson Federal Aid 
in Sport Fish Restoration Act, were collected in Puerto Rico.
    At the time, this question was answered in the affirmative. 
However, this answer was based on a misapprehension about the question 
itself. Further consultation with the Puerto Rico Secretary of Natural 
and Environmental Resources indicates to us that though taxes and fees 
are levied on these sales in Puerto Rico, these are not the same as the 
Federal excise tax referred to in these laws. It is necessary therefore 
for me to provide you this clarification and correction, to the effect 
that this question should have been answered in the negative. I would 
not wish for it to be seen that there was any intention to mislead the 
Subcommittee or the Members, as the Chairman made very strong 
statements of sympathy in the face of such a situation, which I greatly 
appreciate.
    The disparity in treatment is still an issue for all the 
territories, and I respectfully submit this correction of my testimony 
so that the Subcommittee may have the proper information in its record 
to act upon H.R. 5875.

            Best regards,

                                  Jose F. Aponte-Hernandez,

                                 ______
                                 

    Mr. McClintock. Thank you very much for your testimony. We 
will now go to Committee questions. I will begin. I just have 
one question, either for Mr. Aponte or Ms. Bordallo, whoever 
can help me on it.
    I was not clear from the briefing materials. These funds 
are financed by fees that are paid for from the purchase of 
hunting equipment, ammunition, archery equipment, correct?
    Mr. Aponte-Hernandez. Chairman, if you give me the 
opportunity, I want my advisor to translate to be sure that I 
am answering correct.
    Mr. McClintock. Sure.
    Mr. Aponte-Hernandez. That is all right?
    Mr. McClintock. Of course.
    Mr. Aponte-Hernandez. Thank you.
    [Pause.]
    Mr. Aponte-Hernandez. No, the funds are used at fisheries, 
the location of the people, the hunters, and other things 
that----
    Mr. McClintock. No, I understand that. But the funds are 
actually financed by fees that are paid for by the purchases of 
hunting equipment?
    Mr. Aponte-Hernandez. Yes.
    Mr. McClintock. Correct, OK. If I walked into a sporting 
goods store in San Juan, would I be paying these fees?
    Mr. Aponte-Hernandez. Yes.
    Mr. McClintock. So, I would be paying the fees as a 
consumer in Puerto Rico, but I wouldn't have equal access to 
those fees through these programs.
    Mr. Aponte-Hernandez. That is right.
    Mr. McClintock. So, basically, I would be paying for the 
programs, but not receiving the benefits.
    Mr. Aponte-Hernandez. That is right.
    Mr. McClintock. That seems to be pretty open and shut to 
me. That is all I have for questions.
    Mr. Aponte-Hernandez. Thank you.
    Mr. McClintock. Ms. Hanabusa.
    Ms. Hanabusa. I just have one, if anybody can answer it. Do 
you know how much money you have lost over the years, whether 
you go 2 years, 3 years, 4 years, by not having basically an 
equitable position?
    Mr. Sablan, do you know?
    Anybody know?
    [Pause.]
    Ms. Bordallo. It is not a matter of losing the funds, it is 
just a matter of we are not being able to expand at all. And 
fishing is one of our most popular sports on Guam, and we are 
just at a standstill.
    And, of course, I think I mentioned it in my opening 
statement, that it goes a long way to cover sportfishing and 
other recreational activities on Guam. We are just not given 
ample funding, so it has depleted over the years.
    Mr. Aponte-Hernandez. In terms of population, Puerto Rico 
ranks 29 and receives $3.4 million about Pittman, $3.5 Dingell. 
Iowa is 30 and receives $11.5 and $4.5. This is part of the 
disparity that we were living in Puerto Rico about funding.
    Ms. Hanabusa. Thank you.
    Anyone else? Yes.
    Miss Gonzalez-Colon. Thank you, Ms. Ranking Member. In the 
case of the territories, we never receive the same amount of 
funds in proportion with the rest of the states. It is like a 
cap to the territories. So, even when we are paying in the 
exact same rate, we are not receiving the same reimbursement to 
the territories. It is like we are capped. This is happening in 
other Federal programs. We are not receiving the same 
reimbursement, in this case to the territories, for the same 
purpose.
    What the bill is asking is to having the same proportion to 
the territories.
    Ms. Hanabusa. I understand that is what the bill is asking 
for. I was just trying to get a feel and----
    Miss Gonzalez-Colon. Sorry to interrupt you again, in the 
case of Puerto Rico, we have not made the study of how much 
funds we have lost.
    Ms. Hanabusa. I think you just gave me funds.
    Miss Gonzalez-Colon. For the last years.
    Ms. Hanabusa. It was $11-point-something million and $4.5 
versus $3.5 and $3-point-something. I was just trying to get a 
ballpark of----
    Mr. Aponte-Hernandez. States with less population than 
Puerto Rico receive more funds than Puerto Rico. The cap that 
established the law does not benefit Puerto Rico and the people 
of Puerto Rico, to give the same opportunities and to comply 
with all the laws that we have to comply with in Puerto Rico to 
establish and to receive the funds. So, it is a negative 
opportunity to Puerto Rico.
    Mr. Bishop. Ms. Hanabusa, could I give a stab at this?
    Ms. Hanabusa. Yes.
    Mr. Bishop. I think because these funds are going to be 
spread around all the states, it is going to be impossible to 
figure out what would have been.
    However, based on what he was saying, what a typical state 
would be, you are probably in the $8 to $10 million range of 
what the territories could be receiving, or at least Puerto 
Rico could have received that they did not. It would be 
different for every other territory. But I guess the right 
answer is ``a lot.''
    Ms. Hanabusa. Yes. I am just trying to get to ``a lot.'' 
That is all I want to get to. Thank you.
    Mr. Sablan. It is almost $36 million a year.
    Ms. Hanabusa. Thirty-six for CNMI?
    Mr. Sablan. No, for----
    Ms. Hanabusa. Oh, for everything?
    Mr. Sablan. Everybody.
    Ms. Hanabusa. OK, OK.
    Ms. Bordallo. Also, Ranking Member Hanabusa, I want to 
mention that this is not a fault of anybody who put these laws 
together way back in 1937. We were not even Members of Congress 
then. It was just the states, and now we want to straighten 
this out, to be able to get a fair----
    Ms. Hanabusa. We weren't a state, too. In 1947, Hawaii was 
not a state.
    Ms. Bordallo. That is right.
    Ms. Hanabusa. Neither was Alaska.
    Ms. Bordallo. That is true.
    Ms. Hanabusa. Thank you.
    Mr. McClintock. Thank you. Further questions?
    Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman. I just wanted to 
point out that I know we all know that Pittman-Robertson funds 
come from sales of ammunition and firearms and other sporting 
goods equipment, but I believe it also receives funding from 
boat engines and fuel purchases.
    And maybe give Mr. Aponte a moment to elaborate on the 
significance of the sportfishing business in Puerto Rico, and 
possibly the level of funding that these guides contribute on a 
yearly basis.
    If you can get my southern English without help, you will 
be doing very well.
    [Pause.]
    Mr. Westerman. The translator may need help.
    [Pause.]
    Mr. Aponte-Hernandez. The funding supports the hunting and 
the fishery. And any other information that you and the 
Committee need I can provide later to the Committee.
    But we use the funds in the development of the activities 
that were from tourism and--not only for tourism, for the 
people in Puerto Rico and to commerce--our people in Puerto 
Rico that have to fight with the disparities and the 
opportunities that we don't have because of our situation under 
the U.S. flag.
    And we now have the challenge to develop the economy of 
Puerto Rico after Hurricanes Irma and Maria. And we were using 
funding to restore Puerto Rico, and the opportunity that 
changed the law and gave us more funding, H.R. 5875 increased 
the opportunities to develop Puerto Rico because we don't have 
to use our funding, the amount that we have now that is not too 
much, to develop the hunting and fishery. We have the 
opportunity to support and to break disparities and bring close 
opportunities to Puerto Rico.
    Mr. Westerman. Thank you, Mr. Chairman. I just wanted to 
point out that if Puerto Rico is actively engaged in funding 
the Pittman-Robertson Act, then they should be receiving funds 
from that. I yield back.
    Mr. McClintock. And I just, on a personal note, want to 
compliment your translator, who seems to be fluent in Spanish, 
English, and Arkansan.
    [Laughter.]
    Mr. Aponte-Hernandez. Thank you.
    Mr. McClintock. Further questions?
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much. First I want to thank 
Representative Aponte-Hernandez. Thank you for agreeing to 
testify on my bill.
    Mr. Aponte-Hernandez. Thank you.
    Ms. Bordallo. Mr. Chairman, I did invite witnesses from 
Guam, but you know it is quite a trip. And at this short 
notice--21 flying hours--so they regretfully said that they 
could not make it. But I do thank the Representative from 
Puerto Rico.
    I have a couple of questions to ask you, Representative. I 
am sure that you feel strongly, as I do, that the U.S. 
territories should be given equal access to Federal programs 
and funding, on parity with the 50 states.
    Do you agree that the state equivalent share of Pittman-
Robertson and Dingell-Johnson funding provided by this bill 
will support projects and programs that otherwise might never 
get adequate local funding? Do you think, if we change this and 
we----
    Mr. Aponte-Hernandez. Definitely.
    Ms. Bordallo. It will?
    Mr. Aponte-Hernandez. Definitely. I point out in my written 
statement that too often programs like this suffer when there 
is a fiscal deficiency. Right now, when focus of all the 
discretionary funding is on the disaster recovery, and the 
importance of being able to categorize funds to things as 
natural protection, is better for Puerto Rico.
    Ms. Bordallo. Thank you. Another question I have. Can you 
please speak to how increased Federal Pittman-Robertson and 
Dingell-Johnson funding will help Puerto Rico and other 
territories better serve their local sportsmen communities?
    Mr. Aponte-Hernandez. Yes. In many of these territories, 
outdoors activities have important opportunities. It is a key 
attraction for tourism or recreation opportunities. So, they 
enforce the development of the island and our economy, and it 
is better for all of us.
    And the way that Puerto Rico increases and develops 
positively the economy, the Congress and mainland have the 
benefits also because we are less dependent and have more 
opportunities to develop in our way.
    Ms. Bordallo. Thank you. The popularity of hunting and 
fishing in the territories is not reflected in the license 
sales reported to the U.S. Fish and Wildlife Service. For 
example, Guam does not require fishing licenses. And I expect 
that this is the same in other territories.
    My question is, can you please speak to the popularity of 
hunting and fishing in Puerto Rico? I think you have issued 
5,679 hunting license sales reported in 2017. Is this correct?
    Mr. Aponte-Hernandez. Yes.
    Ms. Bordallo. It is? OK, so why is it so important that 
Puerto Rico, the other territories, and the District of 
Columbia receive state-equivalent funding under all Federal 
programs?
    Mr. Aponte-Hernandez. Why?
    Ms. Bordallo. Why?
    Mr. Aponte-Hernandez. Because we are a territory and we 
don't have the same equal rights as all the people under the 
flag of the United States. This is not what our Nation was----
    Ms. Bordallo. Founded on.
    Mr. Aponte-Hernandez. They ask for equal rights and 
democracy in all the world, but the people in the territories 
don't have the same rights that the people in the 50 states. 
So, we have to change that, and to present our Nation like the 
best one in the world, but not in words, in action.
    Ms. Bordallo. Thank you very much, Representative Aponte-
Hernandez. You put that very well. I agree with you.
    Mr. Aponte-Hernandez. Thank you.
    Ms. Bordallo. I yield back, Mr. Chairman.
    Mr. McClintock. Thank you very much.
    Further questions?
    Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. I just want 
to add for the record some issues that Mr. Aponte just brought 
up in his statement. And he just pointed out that we issued 
5,000 hunting licenses in Puerto Rico.
    And on our island, we have a lot of areas, not just for 
fishing and hunting, but for many recreational importance for 
the islanders. I mean not just in Puerto Rico--Guam, American 
Samoa, and the rest of the islands. This is $21 million in 
retail activity, so this is an important area on the island, 
with over 150,000 recreational fishermen, both in sea waters 
and lakes that generate over $70 million in economic activity.
    So, this is the importance of this kind of a bill. If we 
don't adjust this kind of reimbursement of the money, assigned 
to the education programs for the hunters, and in the case of 
Puerto Rico, and this is one of the questions I have for 
Representative Aponte. In 2009, the fisheries restoration and 
Puerto Rico funding were $4 million, and that dropped to around 
$3.5 million, that is correct?
    Mr. Aponte-Hernandez. That is right.
    Miss Gonzalez-Colon. And that $3.5 million continues to be 
in that range over the last 4 years?
    Mr. Aponte-Hernandez. That is right.
    Miss Gonzalez-Colon. So, that drop of $500,000 needs to be 
matched in a 25 percent by the Government of Puerto Rico?
    Mr. Aponte-Hernandez. Yes, we have to match it.
    Miss Gonzalez-Colon. So, we are not receiving the fund from 
the Department of the Interior on a free basis. Puerto Rico 
needs to match the amount of funds from the Department of the 
Interior.
    Mr. Aponte-Hernandez. About 25 percent.
    Miss Gonzalez-Colon. So, we are not receiving the funds on 
a free level. We need to match those resources. Is that 
correct?
    Mr. Aponte-Hernandez. That is right.
    Miss Gonzalez-Colon. OK, so the bill would need to keep at 
least the minimum of resources. In some cases, we are receiving 
less than the rest of the states, even when we are selling more 
licenses or more equipment than any other state. Correct?
    Mr. Aponte-Hernandez. Yes.
    Miss Gonzalez-Colon. One of the areas that we are 
experiencing here is that with the resources of sea, lakes, 
licenses for fishermen and hunters, if we want to keep our 
resources all together, and we have suffered enormous losses to 
the boat fleet and to the shore facilities for fishermen after 
the hurricanes, those resources are deeply needed.
    And that is the reason I want to thank Congresswoman 
Bordallo for having this bill, and Chairman Bishop for allowing 
this hearing, because it is important to have a bill that 
completes--I mean we have Mona Island, we have Vieques, we have 
Culebra.
    And we have a new sport, the sport of bow and arrow for 
hunting seasons from December to March to control the 
population of wild goats and hogs, among others. I do know that 
many states have their populations; we have ours, too. So, this 
is an issue that affects a lot of areas on the island. And I 
know Guam has theirs. So, if we don't have the same resources 
to manage those issues, we will never be able to assign 
resources from the state level to manage those.
    I want to thank Representative Aponte for being here today 
and giving us the information from the Department of Natural 
Resources from the island in terms of the statistics and any 
other further information that the Committee may request from 
the state level, even if it is licenses, if it is local money, 
or matching funds for the state level so we can provide it. I 
know the rest of the territories may do the same thing because 
at the end we just want to have the information that is needed 
to make a greater bill.
    So, thank you for that. Thank you, Representative Aponte. 
And with that, I yield back the balance of my time.
    Mr. McClintock. Thank you. Any other questions?
    Mr. Sablan.
    Mr. Sablan. Just one. And my question is to the Chairman, 
if I may. You had one question early on. Could you repeat that 
question again?
    Mr. McClintock. Yes. The question was, do the residents of 
Puerto Rico pay the fees that go into these programs? The 
answer was yes. Do they have full access to the benefit of 
these programs that they are paying for? The answer was no. 
That was pretty clear-cut to me.
    Mr. Sablan. All right. No, that was all. Thank you.
    Mr. McClintock. You yield back?
    Mr. Sablan. [Nonverbal response.]
    Mr. McClintock. OK. Any further questions?
    Well, seeing none, that will conclude this hearing.
    Representative Aponte, I want to thank you especially, not 
only for the trip you made on short notice, but also for 
staying through the full hearing to give your testimony, 
guidance, and expertise, which is much appreciated.
    Mr. Aponte-Hernandez. Thank you for the questions.
    Mr. McClintock. There may be additional questions from 
Members. If there are, they will submit those in writing, and 
we will keep the record open for 10 business days to receive 
your responses.
    If there is no further business to come before the 
Subcommittee, the Subcommittee stands adjourned.

    [Whereupon, at 3:58 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

       Prepared Statement of the U.S. Department of the Interior
   Statement on H.R. 5597, Desert Tortoise Habitat Conservation Plan 
                 Expansion Act, Washington County, Utah
    Thank you for inviting the Department of the Interior (Department) 
to present views on H.R. 5597, the Desert Tortoise Habitat Conservation 
Plan Expansion Act, Washington County, Utah. The bill would require the 
Secretary of the Interior (Secretary) to renew the Desert Tortoise 
Habitat Conservation Plan with an amendment; amend the Resource 
Management Plans (RMP) for the Bureau of Land Management's (BLM) St. 
George Field Office and the Beaver Dam Wash and Red Cliffs National 
Conservation Areas (NCA); and designate transportation and utility 
corridors through these two NCAs.
    The Department recognizes the work of Congressman Stewart and other 
members of the Utah delegation to address a wide array of resource 
issues and management concerns in Washington County. Secretary Zinke is 
committed to restoring full collaboration and coordination with local 
communities, working with partners to promote multiple use on public 
lands, and making the Department a better neighbor. The Department 
supports the bill's goals of providing economic certainty to the 
communities of Washington County. We would welcome the opportunity to 
work with the sponsor and the Subcommittee on a few clarifying 
amendments, time frames, and to ensure consistency of implementation 
with other laws.
                               background
    Washington County, Utah, covers nearly 2,500 square miles, and is 
among the fastest growing counties in the country, with a population 
increase of 52 percent between 2000 and 2010. Population growth has 
direct impacts on public lands within the county and poses management 
challenges for a variety of resources. For over 20 years, the BLM has 
worked closely with Washington County, the state of Utah, area tribes, 
and Federal agency partners to manage sensitive resources in a way that 
prevents conflicts and facilitates continued growth. As part of this 
effort, Washington County and the U.S. Fish and Wildlife Service 
(USFWS) undertook a public process, including meetings between private 
landowners and state and Federal land managers, to develop a Habitat 
Conservation Plan (HCP) that allowed for continued growth while 
ensuring protection of the threatened Mojave desert tortoise. The HCP 
Implementation Agreement, signed by Washington County, the state of 
Utah, the city of Ivins, the BLM, and the USFWS in February 1996, 
established the Red Cliffs Desert Reserve (Reserve), a multi-
jurisdictional wildlife reserve of 61,022 acres largely composed of 
Federal and state lands.
    The HCP expired in 2016 and Washington County has requested an 
extension of the permit with an amendment to facilitate the Northern 
Corridor Highway route through the Reserve. The County is in ongoing 
discussions with the USFWS to renew the HCP. This includes 
consideration of the proposed highway construction.
Omnibus Public Land Management Act of 2009
    In early 2009, Congress passed H.R. 146, the Omnibus Public Land 
Management Act (Public Law 111-11, hereafter referred to as ``OPLMA'' 
or ``the Act''), which included major provisions affecting future land 
management in Washington County, Utah. The Act established the Beaver 
Dam Wash and Red Cliffs NCAs to be managed by the BLM, and designated 
new wilderness areas to be managed by the BLM, U.S. Forest Service, and 
National Park Service.
    The congressionally-designated boundary of the Red Cliffs NCA 
encompasses approximately 44,725 acres of public land managed by the 
BLM, including about 70 percent of the Reserve, with additional state 
and private lands. The Act also states that the purposes of the Red 
Cliffs NCA are ``to conserve, protect, and enhance for the benefit and 
enjoyment of present and future generations the ecological, scenic, 
wildlife, recreational, cultural, historical, natural, educational, and 
scientific resources.''
    OPLMA also directed the BLM to identify one or more alternatives 
for a ``northern transportation route in the County'' as part of a 
comprehensive travel management plan and in consultation with 
Washington County, the city of St. George, and other local governments.
St. George Resource Management Plans
    Based on the congressional direction in OPLMA, the BLM prepared 
RMPs for the Beaver Dam Wash and Red Cliffs NCAs. As required by the 
Act, the BLM also prepared an amendment to the St. George Field Office 
RMP to identify and manage priority biological conservation areas and 
to facilitate the development of a comprehensive travel management 
plan. The BLM signed Records of Decision completing this planning 
process on December 21, 2016.
                               h.r. 5597
    H.R. 5597 requires the Secretary to amend and renew the Desert 
Tortoise Habitat Conservation Plan, and to amend the RMPs for the St. 
George Field Office and the Beaver Dam Wash and Red Cliffs NCAs. In 
addition, the bill requires the Secretary to grant transportation and 
utility corridors through both NCAs, prevents the Secretary from 
acquiring water rights, and includes a number of other miscellaneous 
provisions.
Desert Tortoise Habitat Conservation Plan Amendment & Renewal (Section 
        3)
    Section 3 of H.R. 5597 requires the Secretary (after receipt of a 
proposal from Washington County) to renew the HCP and issue associated 
permits for a period of 25 years and accept an amendment to the 
Reserve, which would expand it by approximately 6,900 acres (``Zone 
6'') as depicted on the legislative map, and allow for construction of 
a highway through the Reserve. Under the bill, Washington County would 
manage Zone 6 in conformity with the HCP, and the Secretary would 
manage the Federal lands in Zone 6. Concurrently with the HCP amendment 
and renewal, the Secretary would be required to amend, within 1 year, 
the St. George Field Office Resource Management Plan to manage Federal 
lands within Zone 6, provide for the management of species consistent 
with the HCP, and include certain Utility Development Protocols.
    USFWS has been working with Washington County, BLM, and other 
partners to explore options to meet the transportation needs of the 
County and address the requirements of the Endangered Species Act for 
renewal of the HCP. A primary consideration is how to meet the original 
intent of OPLMA while minimizing impacts to desert tortoise. County, 
state, and Federal biologists are currently analyzing potential 
measures to reduce the impact of the highway such as bridging and 
culverts. Washington County has proposed to offset remaining impacts by 
adding Zone 6 to the Reserve, of which the BLM owns about 3,500 acres 
and the state owns about 3,200 acres. This area is separated from the 
Reserve boundary by 3 miles, but has tortoise densities comparable to 
the area that would be affected by the proposed highway.
    The Department will work cooperatively to address potential 
conservation strategies raised in Section 3 of H.R. 5597, as well as 
issues and impacts associated with the proposed highway construction 
through the ongoing plan renewal process.
    Section 3 states that Washington County would manage the proposed 
Zone 6 area, which is currently composed of lands managed by the state 
of Utah, private property, and BLM-managed public lands. The Department 
would like to work with the sponsor and Subcommittee to clarify the 
intent of this provision. In addition, we would like to work with the 
sponsor to clarify the timeline for the HCP. The Department would like 
to work with the bill's sponsor and the Committee to clarify the intent 
and scope of certain language in section 3 of the bill as related to 
application of mitigation credits. Finally, the Department would 
welcome the opportunity to develop a legislative map for this section 
that meets the sponsor's needs.
Resource Management Plan Amendments (Section 4)
    Section 4 of H.R. 5597 requires the BLM, within 1 year, to amend 
the RMPs for the Red Cliffs and Beaver Dam Wash NCAs and to amend the 
St. George Field Office RMP Amendment. This section further requires 
that these RMP amendments be: (1) in accordance with section 202(c)(9) 
of the Federal Land Policy and Management Act of 1976 (FLPMA); (2) in 
coordination and cooperation with Washington County, Utah, St. George 
City, other political subdivisions within the County, and the 
Washington County Water Conservancy District; and (3) consistent with 
the bill's other provisions and the HCP.
    The Department recommends minor technical modifications to this 
section to ensure the language is consistent with the sponsor's intent 
regarding the time frame for completing the planning process. The 
Department recommends that the RMPs be completed at the same time as 
the HCP to enhance coordination efforts. We look forward to working 
with state, tribal, and local government partners on this important 
planning process.
Red Cliffs & Beaver Dam Wash National Conservation Areas (Sections 5 & 
        6)
    Section 5 of the bill designates a 150-foot wide transportation and 
utility corridor in each direction from the centerline of State Route 
18 through the Red Cliffs NCA; prohibits the Secretary from acquiring 
any water rights within or related to any land or interest in land 
within the NCA; and requires the Secretary to grant to the state of 
Utah or to one or more units of local government a 300-foot wide right-
of-way for the northern transportation and utility route as referenced 
in OPLMA and as identified on the legislative map. Section 5 also 
directs the Secretary to adhere to certain Utility Development 
Protocols for new and existing utility management within the NCA.
    Section 6 of H.R. 5597 designates a 150-foot wide transportation 
and utility corridor in each direction from the centerline of old U.S. 
91 through the Beaver Dam Wash NCA; prohibits the Secretary from 
acquiring any water rights within or related to any land or interest 
land within the NCA; and states that access to utilities and grazing 
permits and maintenance of utilities located within the NCA shall be 
preserved. This section also directs the Secretary to adopt Utility 
Development Protocols for the construction, operation, maintenance, and 
replacement of utilities within the NCA that are no more restrictive 
than those developed for the Red Cliffs NCA. These protocols must 
comply with the National Environmental Policy Act, including the 
identification and consideration of potential impacts to fish and 
wildlife resources and habitat.
    The Department is committed to being a good neighbor and to 
restoring full collaboration with local communities. As such, we 
support this Section's goals of providing economic certainty to and 
meeting the infrastructure needs of Washington County. The Department 
notes that the legislative map referenced in Section 5 does not reflect 
current land status data. We would welcome the opportunity to develop 
such a map for this section.
    Sec. 5(d) and Sec. 6(b) would prohibit the Secretary from acquiring 
water rights or water rights related to any land or interest in land in 
the NCAs. As consistent with Federal and state law, the ability for the 
Federal Government to acquire water rights from willing sellers is 
important to ensure adequate management of the designated areas--both 
the lands within the NCAs and the public lands included in the Reserve. 
If acquired, water rights would be used for campgrounds, visitor 
facilities, recreation resources, livestock grazing, and administrative 
uses that are in conformance with Utah water law.
    The Department notes that the current RMP for the Beaver Dam Wash 
NCA authorizes a 150-foot wide transportation and utility corridor 
along old U.S. 91 through the NCA, and livestock grazing consistent 
with section 1975(e)(4) of OPLMA in a manner that conserves, protects, 
and enhances the ecological, scenic, wildlife, recreational, cultural, 
historical, natural, educational, and scientific resources of the NCA.
                               conclusion
    The Department is committed to working with state, tribal, and 
local partners to manage public lands in Washington County. We support 
the goal of addressing the infrastructure needs of growing rural 
communities. As such, the Department would welcome the opportunity to 
work with the sponsor and the Subcommittee on a few modifications to 
the bill as it moves forward through the legislative process. Thank you 
for the opportunity to provide this statement.

                                 ______
                                 

       Prepared Statement of the U.S. Department of the Interior
    Statement on H.R. 5875, To Amend the Pittman-Robertson Wildlife 
   Restoration Act and the Dingell-Johnson Federal Aid in Sport Fish 
                            Restoration Act
    The Pittman-Robertson Wildlife Restoration Act (P-R Act), passed in 
1937, along with the Dingell-Johnson Sport Fish Restoration Act (D-J 
Act), passed in 1950, authorize grant programs that provide critically 
important funding to states and territories for administering state 
fish and wildlife programs and for implementing on-the-ground wildlife 
and sport fish conservation. Revenues for the Wildlife Restoration 
Program are derived from excise taxes on firearms, ammunitions, archery 
equipment, and arrow components. Revenues for the Sport Fish 
Restoration program are derived from excise taxes on fishing equipment, 
motorboat and small engine fuels, and import duties. The source of 
funding creates a ``user-pay-user-benefit'' cycle of success.
    The U.S. Department of the Interior (Department), through the U.S. 
Fish and Wildlife Service's (FWS) Wildlife and Sport Fish Restoration 
(WSFR) program, apportioned approximately $1.1 billion in Wildlife and 
Sport Fish Restoration grants to all 50 states and 6 U.S. territories 
in Fiscal Year 2017. These grants provided essential support for state 
agencies to conserve fish and wildlife species and their habitats, and 
to enhance opportunities for boating, angling, hunting, and 
recreational shooting. Through the funding that has been distributed, 
nearly 10 million students have been trained in hunter education and 
over 7 million hours have been contributed by volunteers to hunter 
education and safety training. In addition, through this funding, 455 
million acres are maintained for wildlife restoration and wildlife 
recreation nationwide, and habitat improvements have been made on 2 
million surface acres of reservoirs and lakes.
    If enacted, H.R. 5875 would amend the P-R Act to remove the 
apportionment caps of one-half of one per centum for the Commonwealth 
of Puerto Rico, and one-sixth of one per centum for Guam, the U.S. 
Virgin Islands, American Samoa, and the Commonwealth of the Northern 
Mariana Islands to establish apportionment parity with the states for 
one-half the revenues accruing from taxes imposed on pistols, 
revolvers, bows, and arrows and to increase apportionments for Guam, 
American Samoa, the Virgin Islands, and the Commonwealth of the 
Northern Mariana Islands under the Wildlife and Conservation 
Restoration Account. Additionally, it would amend the D-J Act to remove 
the per centum apportionment caps for the territories and the District.
    The Department is committed to its mission of restoring trust and 
fulfilling insular responsibilities, and recognizes the importance of 
their respective natural resources. We are analyzing the proposed 
amendments to the P-R and D-J Act and how the overall apportionments to 
states and territories would be affected under H.R. 5875. We would be 
happy to provide an analysis to the Committee, detailing the bill's 
impacts to the WSFR program, to inform further consideration.

    As the Committee considers H.R. 5875, the Department would like 
bring the Committee's attention to a challenge in the administration of 
these Acts. The Fish and Wildlife Programs Improvement and National 
Wildlife Refuge System Centennial Act of 2000 (``Act'') (Pub. Law 106-
408, Nov. 1, 2000), Section 9 (a)(2) provides that:

        . . . administrative funds may be used only for expenses for 
        administration that directly support the implementation of this 
        Act that consist of (2) personnel costs of employees who 
        directly administer this Act on a part-time basis for at least 
        20 hours each week, not to exceed the portion of those costs 
        incurred with respect to the work hours of the employee during 
        which the employee directly administers this Act, as those 
        hours are certified by the supervisor of the employee. 
        (emphasis added; 114 Stat. 1764)

    FWS WSFR staff possesses expertise in managing financial assistance 
programs, and are experienced in applying best business practices, 
fiscal efficiencies, and fair resource allocation to each activity. 
However, WSFR staff work on a myriad of programs causing difficulty in 
meeting the requirements of Section 9(a)(2). We would like to work with 
the Committee on finding a solution to this issue.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Bishop Submission on H.R. 5597

    --Statement for the Record, State of Utah School & 
            Institutional Trust Lands Administration, dated May 
            29, 2018

Rep. Stewart Submissions on H.R. 5597

    --Letter addressed to Rep. Stewart from Washington County 
            Convention & Tourism, Kevin Lewis, Director of 
            Tourism, dated May 17, 2018

    --Letter addressed to Rep. Stewart from GRO Promotion, 
            Cimarron Chacon, President, dated March 26, 2018

Mr. Van Dam Submissions on H.R. 5597

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from citizens of Southwest Utah, dated May 
            15, 2018

    --Letter addressed to Chairman Rob Bishop from the Desert 
            Tortoise Council, dated May 15, 2018

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from organizations opposing H.R. 5597, 
            dated May 15, 2018

    --Letter addressed to Ranking Member Grijalva from Bill 
            Mader, dated May 1, 2018

Rep. Gonzalez-Colon Submissions on H.R. 5875

    --Statement for the Record by Tania Vasquez Rivera, 
            Secretary of the Puerto Rico Department of Natural 
            and Environmental Resources, dated May 22, 2018

    --Letter addressed to Chairman McClintock and Ranking 
            Member Hanabusa from Delegate Gonzalez-Colon, dated 
            June 1, 2018

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
